<html>
<title> - LEGISLATING TO STOP THE ONSLAUGHT OF ANNOYING ROBOCALLS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
        LEGISLATING TO STOP THE ONSLAUGHT OF ANNOYING ROBOCALLS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                           Serial No. 116-26
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
 
 
 
 


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                        
                        
                        
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
39-858 PDF            WASHINGTON : 2020   


                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Communications and Technology

                        MIKE DOYLE, Pennsylvania
                                 Chairman
JERRY McNERNEY, California           ROBERT E. LATTA, Ohio
YVETTE D. CLARKE, New York             Ranking Member
DAVID LOEBSACK, Iowa                 JOHN SHIMKUS, Illinois
MARC A. VEASEY, Texas                STEVE SCALISE, Louisiana
A. DONALD McEACHIN, Virginia         PETE OLSON, Texas
DARREN SOTO, Florida                 ADAM KINZINGER, Illinois
TOM O'HALLERAN, Arizona              GUS M. BILIRAKIS, Florida
ANNA G. ESHOO, California            BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
G. K. BUTTERFIELD, North Carolina    BILL FLORES, Texas
DORIS O. MATSUI, California, Vice    SUSAN W. BROOKS, Indiana
    Chair                            TIM WALBERG, Michigan
PETER WELCH, Vermont                 GREG GIANFORTE, Montana
BEN RAY LUJAN, New Mexico            GREG WALDEN, Oregon (ex officio)
KURT SCHRADER, Oregon
TONY CARDENAS, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
    
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     4
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
    Prepared statement...........................................    10

                               Witnesses

Dave Summitt, Chief Information Security Officer for the H. Lee 
  Moffitt Cancer Center & Research Institute, and Fellow, 
  Institute of Critical Infrastructure Technology................    11
    Prepared statement...........................................    14
Margot Saunders, Senior Counsel, National Consumer Law Center....    20
    Prepared statement...........................................    22
Patrick Halley, Senior Vice President, Advocacy and Regulatory 
  Affairs, USTelecom-The Broadband Association...................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   117
Aaron Foss, Founder, Nomorobo....................................    59
    Prepared statement...........................................    61

                           Submitted Material

H.R. 946, the Stopping Bad Robocalls Act \1\
Discussion Draft, H.R. ___, the Support Tools to Obliterate Pesky 
  Robocalls Act \1\
H.R. 1421, the Help Americans Never Get Unwanted Phone calls Act 
  of 2019 \1\
H.R. 2355, the Regulatory Oversight Barring Obnoxious Calls and 
  Texts Act of 2019 \1\
H.R. 721, the Spam Calls Task Force Act of 2019 \1\
H.R. 2298, the Repeated Objectionable Bothering Of Consumers On 
  Phones Act \1\
H.R. 1575, the Robocall Enforcement Enhancement Act of 2019 \1\
Letter of April 29, 2019, from Meredith Attwell Baker, President 
  and Chief Executive Officer, CTIA, to Mr. Latta, submitted by 
  Mr. Latta......................................................    97
Letter of April 29, 2019, from Matthew M. Polka, President and 
  Chief Executive Officer, America's Communications Association, 
  to Mr. Doyle and Mr. Latta, submitted by Mr. Latta.............    98
Letter of April 29, 2019, from Jonathan Bullock, Vice President, 
  Corporate Development and Government, Hotwire Communications, 
  et al., to Mr. Doyle and Mr. Latta, submitted by Mr. Latta.....    99
Letter of April 29, 2019, from ACA International, et al., to Mr. 
  Doyle and Mr. Latta, submitted by Mr. Doyle....................   101

----------

\1\ Legislation discussed during the hearing has been retained in 
committee files and also is available at https://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=109357.
Letter of April 29, 2019, from Maureen Mahoney, Policy Analyst, 
  and George P. Slover, Senior Policy Counsel, Consumer Reports, 
  to Mr. Doyle and Mr. Latta, submitted by Mr. Doyle.............   103
Letter of April 29, 2019, from Marc Rotenberg, President, 
  Electronic Privacy Information Center, et al., to Mr. Doyle and 
  Mr. Latta, submitted by Mr. Doyle..............................   105
Letter of April 29, 2019, from Brad Thaler, Vice President of 
  Legislative Affairs, National Association of Federally-Insured 
  Credit Unions, to Mr. Doyle and Mr. Latta, submitted by Mr. 
  Doyle..........................................................   107
Letter of April 29, 2019, from Mark Neeb, Chief Executive 
  Officer, ACA International, to Mr. Doyle and Mr. Latta, 
  submitted by Mr. Doyle.........................................   109
Report of ACA International, ``The Impact of Call-blocking and 
  Labeling Technologies on the Accounts Receivable Industry,'' 
  submitted by Mr. Doyle.........................................   114
Letter of April 30, 2019, from Hon. Jefferson Van Drew, a 
  Representative in Congress from the State of New Jersey, to the 
  Subcommittee on Communications and Technology, submitted by Mr. 
  Doyle..........................................................   116


        LEGISLATING TO STOP THE ONSLAUGHT OF ANNOYING ROBOCALLS

                              ----------                              


                        TUESDAY, APRIL 30, 2019

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Mike Doyle (chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, McNerney, Clarke, 
Loebsack, Veasey, McEachin, Soto, O'Halleran, Eshoo, DeGette, 
Butterfield, Matsui, Welch, Cardenas, Dingell, Pallone (ex 
officio), Latta (subcommittee ranking member), Shimkus, Olson, 
Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, Walberg, 
Gianforte, and Walden (ex officio).
    Staff present: AJ Brown, Counsel; Jeffrey C. Carroll, Staff 
Director; Jennifer Epperson, FCC Detailee; Evan Gilbert, Deputy 
Press Secretary; Waverly Gordon, Deputy Chief Counsel; Tiffany 
Guarascio, Deputy Staff Director; Alex Hoehn-Saric, Chief 
Counsel, Communications and Consumer Protection; Jerry 
Leverich, Senior Counsel; Dan Miller, Policy Analyst; Phil 
Murphy, Policy Coordinator; Alivia Roberts, Press Assistant; 
Andrew Souvall, Director of Communications, Outreach, and 
Member Services; Mike Bloomquist, Minority Staff Director; 
Robin Colwell, Minority Chief Counsel, Communications and 
Technology; Jordan Davis, Minority Senior Advisor; Kristine 
Fargotstein, Minority Detailee, Communications and Technology; 
Margaret Tucker Fogarty, Minority Staff Assistant; Peter 
Kielty, Minority General Counsel; Tim Kurth, Minority Deputy 
Chief Counsel, Communications and Technology.
    Mr. Doyle. The Subcommittee on Communications and 
Technology will now come to order. The Chair recognizes himself 
for 5 minutes.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Well, I want to welcome everyone to today's legislative 
hearing on solutions to a problem that we all have firsthand 
experience with: illegal robocalls. Today's hearing will 
examine the onslaught of illegal robocalls and seven 
legislative proposals to help address this harmful, predatory, 
and extremely annoying practice.
    Among the bills we will consider today is Chairman 
Pallone's Stopping Bad Robocalls Act, which I support and am an 
original cosponsor of along with many members of this 
committee. This bill offers a comprehensive set of solutions 
that I believe can help seriously reduce the numbers of 
robocalls that consumers receive.
    We will also consider Ranking Member Latta's STOP Robocalls 
Act which I have also agreed to cosponsor. While I have some 
concerns about this bill, Ranking Member Latta and I have 
agreed to work together to resolve these issues in order to 
advance this legislation. We will also be considering two bills 
from Congresswoman Eshoo, the HANGUP Act and the ROBO Calls and 
Texts Act, as well as Congressman Crist's Spam Calls Task Force 
Act of 2019 and Congresswoman Speier's ROBOCOP Act and 
Congressman Van Drew's Robocall Enforcement Enhancement Act of 
2019.
    I want to thank our panel of witnesses for appearing before 
us today to testify about this important issue and the 
legislation that is before this subcommittee.
    Unwanted robocalls and texts are the top consumer complaint 
received by the Federal Communications Commission and the 
Federal Trade Commission. According to the FCC's report on 
robocalls, consumer complaints to the FCC have increased from 
150,000 a year in 2016 to 230,000 in 2018. The Federal Trade 
Commission, which administers the Do Not Call Registry, 
received nearly 3.8 million complaints regarding robocalls last 
year alone.
    As might be expected, the number of robocalls has exploded 
as well, topping out at nearly 48 billion, with a B, last year, 
a 57 percent increase in volume from the year before, according 
to the YouMail Robocall Index. That number is estimated to 
increase to 60 billion by the end of this year. And while some 
of these calls constituted legitimate alerts and reminders, 
those calls accounted for only 20 percent of the total amount 
of robocalls.
    In the month of March alone, phones in my hometown of 
Pittsburgh received an estimated 37 million robocalls which was 
an eight percent increase in the number of calls we received 
the month before. The problem has gotten so bad that you can 
watch videos on the internet of people getting robocalls while 
they are in the middle of making a video complaining about 
robocalls. One of my favorites is of AT&T's CEO getting a 
robocall in the middle of an interview, showing that truly no 
one is immune to this nuisance.
    Many phone service providers have begun making robocall 
blocking technologies like Mr. Foss' Nomorobo service available 
to their customers, and I applaud the efforts of those to offer 
these services to customers for free. I encourage all phone 
service providers to make these services available to their 
customers free of charge.
    I believe that Congress and the FCC have an obligation to 
work with phone providers and their customers whether they may 
be institutions like the Moffitt Cancer Center, which is with 
us today to talk about this issue, or individual consumers, to 
not only help with the deployment of blocking technologies, but 
to work on addressing the underlying shortcomings of the law 
and our Nation's telecommunications infrastructure to help stem 
the tide of this harmful and predatory practice.
    Thank you. I look forward to the testimony of the 
witnesses, and I yield the balance of my time to Congresswoman 
Eshoo.
    [The prepared statement of Mr. Doyle follows:]

                 Prepared Statement of Hon. Mike Doyle

    Welcome everyone to today's legislative hearing on 
solutions to a problem that we've all had first-hand experience 
with, illegal robocalls.
    Today's hearing will examine the onslaught of illegal 
robocalls and seven legislative proposals to help address this 
harmful, predatory, and extremely annoying practice. Among the 
bills we will consider today is Chairman Pallone's Stopping Bad 
Robocalls Act, which I support and am an original cosponsor of, 
along with many members of the committee. This bill offers a 
comprehensive set of solutions that I believe can help 
seriously reduce the number of robocalls consumers receive.
    We will also consider Ranking Member Latta's Stop Robocalls 
Act, which I have also agreed to cosponsor. While I have some 
concerns about the bill, Ranking Member Latta and I have agreed 
to work together to resolve these issues in order to advance 
this legislation.
    We will also be considering two bills from Congresswoman 
Eshoo, the Hang Up Act and the ROBO Calls and Texts Act. As 
well as Congressman Crist's Spam Calls Task Force Act of 2019, 
Congresswoman Speier's ROBOCOP Act, and Congressman Van Drew's 
Robocall Enforcement Enhancement Act of 2019.
    I'd like to thank our panel of witnesses for appearing 
before us today to testify about this important issue and the 
legislation before the subcommittee.
    Unwanted robocalls and texts are the top consumer complaint 
received by the Federal Communications Commission and the 
Federal Trade Commission. According to the FCC's Report on 
Robocalls, consumer complaints to the FCC have increased from 
150,000 a year in 2016 to 230,000 in 2018. The Federal Trade 
Commission, which administers the Do Not Call Registry, 
received nearly 3.8 million complaints regarding robocalls last 
year alone.
    As might be expected, the number of robocalls has exploded 
as well, topping out at nearly 48 billion last year, a 57 
percent increase in volume from the year before, according to 
the ``you-mail'' robocall index. That number is estimated to 
increase to 60 billion by the end of this year. And while some 
of these calls constituted legitimate alerts and reminders, 
those calls accounted for only 20 percent of the total amount 
of robocalls.
    In the month of March alone, phones in my home town of 
Pittsburgh received an estimated 37 million robocalls, which 
was an 8 percent increase in the number of calls we received 
the month before.
    The problem has gotten so bad that you can watch videos on 
the Internet of people getting robocalls while they are in the 
middle of making videos complaining about them. One of my 
favorites is of AT&T's CEO getting robocalled in the middle of 
an interview, showing that truly no one is immune to this 
nuisance.
    Many phone services providers have begun making robocalling 
blocking technologies, like Mr. Foss' Nomorobo service, 
available to their customers, and I applaud the efforts of 
those who offer these services to customers for free. I 
encourage all phone service providers to make these services 
available to their customers free of charge.
    I believe that Congress and the FCC have an obligation to 
work with phone providers and their customers, whether they be 
institutions like the Cancer Moffitt Center, which is with us 
today to talk about this issue, or individual consumers, to not 
only help with the deployment of blocking technologies, but to 
work on addressing the underlying shortcomings of the law and 
our Nation's telecommunications infrastructure, to help stem 
the tide of this harmful and predatory practice.
    Thank you and I look forward to the testimony of our 
witnesses.

    Ms. Eshoo. Thank you, Mr. Chairman, for yielding time to 
me, and thank you for considering two of my bills during 
today's hearing, the HANGUP Act and the ROBO Calls and Texts 
Act.
    Millions of students, veterans, farmers, and homeowners 
have loans owed to or guaranteed by the Federal Government. In 
2015, Congress created a loophole that allows companies 
collecting this debt to robocall borrowers without consent. The 
HANGUP Act is bipartisan, bicameral legislation that repeals 
this loophole, ensuring that all Americans are protected from 
these abusive robocalls.
    Very importantly, last Wednesday, a Fourth Circuit Court of 
Appeals decision strengthened the need for the HANGUP Act 
because the Court found the 2015 loophole to be 
unconstitutional, so we have an opportunity here. My other 
bill, the ROBO Calls and Texts Act, creates a division at the 
FCC to ensure that the Commission is responsive to the millions 
of requests that they do something and it compels them to act 
to adopt technological standards to combat robocalls.
    So, I thank you, Mr. Chairman, for yielding the time to me 
and for taking up two of my bills. Yield back.
    Mr. Doyle. I thank the gentlelady. The Chair now recognizes 
my friend, Mr. Latta, the ranking member for the Subcommittee 
on Communications and Technology, for 5 minutes for his opening 
statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you, Mr. Chairman. And good morning and 
welcome to our panel of witnesses. Like many of my colleagues 
on this subcommittee, today's hearing addresses one of the top 
issues I hear about from my constituents when I am back home in 
Ohio. In fact, some of my constituents are getting so many 
unlawful robocalls they have stopped answering their phones.
    After listening to these concerns, I introduced a bill with 
the chairman, the gentleman from Pennsylvania, that we will be 
discussing today, called the Support Tools to Obliterate Pesky 
Robocalls Act, or STOP Robocalls Act. Our bill would give us 
additional tools in our robocall toolbox to go after the bad 
actors. The STOP Robocalls Act would help terminate illegal 
call operations by streamlining the process for private 
entities to share information with the Federal Communications 
Commission about scams and further industry efforts to trace 
back the source of unwanted robocalls.
    In addition to going after the root of the problem, our 
bill would also protect consumers by providing easier access to 
illegal robocall blocking technology. Our bill distinguishes 
between legitimate and illegitimate callers and recognizes that 
we need to go after the bad actors. I hope that the focus of 
today's hearing is also on how we need to stop illegal, 
unwanted robocalls.
    While we all get annoyed by the overwhelming number of 
unlawful calls we receive, we also rely on our phone system for 
many valuable, proconsumer messages. Emergency personnel use 
voice services to provide evacuation notices and alerts during 
severe weather and other dangerous situations. Schools use 
voice and text services to notify parents of changes in the 
school schedule.
    And although Ohio doesn't declare as many snow days as DC, 
parents like knowing when school is closing early or canceled. 
Financial services also use voice and text services to alert 
consumers to potentially unauthorized activity in their bank 
account. And the medical community uses voice and text services 
to follow-up with patients with important information and 
checkups after operations and remind patients of prescriptions 
refills, or even to confirm doctors' appointments.
    But bad actors have also figured out how to take advantage 
of the phone system and technology that legitimate entities use 
to share important messages and instead manipulate the 
technology to trick and deceive consumers. These scammers 
deliberately falsify their caller ID information to hoax 
consumers into thinking they are getting a call from their bank 
or the IRS or make the call appear that it is coming from 
someone in their neighborhood. This tactic known as 
``neighborhood spoofing'' assumes that we are all likely to 
answer a phone call that appears to be local and is a key 
driver behind unwanted calls and texts to both wireline and 
wireless phones.
    Furthermore, this type of fraudulent spoofing results in 
real financial harm. Scammers trick consumers into answering 
these calls and then use deceptive tactics to convince people, 
often vulnerable and trusting senior citizens, to hand over 
their personal information or to purchase fake goods and 
services.
    We want to make sure that we are preserving consumers' 
access to desirable and, at times, lifesaving calls and text 
messages while also protecting them from bad actors who 
fraudulently spoof caller ID information to make illegal 
robocalls. At best, Americans find these robocalls pesky, and 
at worst, these illegal calls scam hardworking Americans out of 
their life savings.
    Congress, the FCC, and the FTC have made tremendous 
progress working with industry to help reduce the number of 
illegal robocalls Americans receive. Industry has also been 
actively working to protect consumers from unwanted robocalls 
by developing a set of procedures to authenticate caller ID 
information associated with telephone calls to combat unlawful 
caller ID spoofing.
    Last Congress, when I served as the chairman of the Digital 
Commerce and Consumer Protection Subcommittee, we held a 
hearing on the options and strategies that the Government and 
industry were employing to fight robocalls and caller ID 
spoofing and to provide consumers with the tools to protect 
themselves. We learned of tools available to empower consumers 
and discuss how consumer education was a key in keeping to 
prevent people from falling victim. However, as technology 
continues to evolve, so do the tactics that bad actors use to 
illegally spoof numbers and make fraudulent robocalls.
    But despite our progress thus far, more work remains to be 
done to protect the American consumer. I am glad we are 
discussing several legislative proposals today that would do 
just that. I look forward to hearing from the witnesses and 
thank the chairman for working with me on the STOP Robocalls 
Act and for holding today's hearing.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Latta follows:]

               Prepared Statement of Hon. Robert E. Latta

    Good morning and welcome to our panel of witnesses. Like 
many of my colleagues on this subcommittee, today's hearing 
addresses one of the top issues I hear about from my 
constituents when I am back home in Ohio. In fact, some of my 
constituents are getting so many unlawful robocalls that they 
have stopped answering their phones.
    After listening to these concerns, I introduced a bill with 
Chairman Doyle that we will be discussing today called the 
Support Tools to Obliterate Pesky Robocalls Act or STOP 
Robocalls Act. Our bill would give us additional tools in our 
robocall toolbox to go after bad actors. The STOP Robocalls Act 
would help terminate illegal call operations by streamlining 
the process for private entities to share information with the 
Federal Communications Commission about scams, and further 
industry efforts to trace back the source of unwanted 
robocalls. In addition to going after the root of the problem, 
our bill would also protect consumers by providing easier 
access to illegal robocall blocking technology.
    Our bill distinguishes between legitimate and illegitimate 
callers and recognizes that we need to go after the bad actors. 
I hope that the focus of today's hearing is also on how we need 
to stop illegal, unwanted robocalls. While we all get annoyed 
by the overwhelming number of unlawful calls we receive, we 
also rely on our phone system for many valuable, proconsumer 
messages. Emergency personnel use voice services to provide 
evacuation notifications and alerts during severe weather and 
other dangerous situations. Schools use voice and text services 
to notify parents of changes in the school schedule--and 
although Ohio doesn't declare as many snow days as DC- parents 
like knowing when school is closing early or canceled. 
Financial services also use voice and text services to alert 
consumers to potentially unauthorized activity in their bank 
account. And, the medical community uses voice and text 
services to follow up with patients with important information 
and check-ups after operations, remind patients of prescription 
refills, or even to confirm doctor's appointments.
    But, bad actors have also figured out how to take advantage 
of the phone system and technology that legitimate entities use 
to share important messages, and instead manipulate the 
technology to trick and deceive consumers. These scammers 
deliberately falsify their caller ID information to hoax 
consumers into thinking that they are getting a call from their 
bank or IRS, or make the call appear that it is coming from 
someone in their neighborhood. This tactic, known as 
``neighborhood spoofing,'' assumes that we are more likely to 
answer a phone call that appears to be local, and is a key 
driver behind unwanted calls and texts to both wireline and 
wireless phones.
    Furthermore, this type of fraudulent spoofing results in 
real financial harm. Scammers trick consumers into answering 
these calls and then use deceptive tactics to convince people--
often vulnerable and trusting senior citizens--to hand over 
their personal information or to purchase fake goods and 
services.
    We want to make sure that we are preserving consumers' 
access to desirable, and at times, life-saving calls and text 
messages while also protecting them from bad actors who 
fraudulently spoof caller ID information to make illegal 
robocalls. At best, Americans find these robocalls pesky, and 
at worst, these illegal calls scam hard-working Americans out 
of their life savings.
    Congress, the FCC, and the FTC have made tremendous 
progress working with industry to help reduce the number of 
illegal robocalls Americans receive. Industry has also been 
actively working to protect consumers from unwanted robocalls 
by developing a set of procedures to authenticate caller ID 
information associated with telephone calls to combat unlawful 
caller ID spoofing.
    Last Congress, when I served as chairman of the Digital 
Commerce and Consumer Protection subcommittee, we held a 
hearing on the options and strategies that the Government and 
industry were employing to fight robocalls and caller ID 
spoofing and provide consumers with tools to protect 
themselves. We learned of tools available to empower consumers 
and discussed how consumer education was key in helping to 
prevent people from falling victim.
    However, as technology continues to evolve, so do the 
tactics that bad actors use to illegally spoof numbers and make 
fraudulent robocalls. Despite our progress thus far, more work 
remains to be done to protect American consumers. I am glad we 
are discussing several legislative proposals today that would 
do just that.
    I look forward to hearing from the witnesses, and I thank 
the chairman for working with me on the STOP Robocalls Act and 
for holding today's hearing. With that I yield back.

    Mr. Doyle. I thank the gentleman. The Chair now recognizes 
Mr. Pallone, chairman of the full committee, for 5 minutes for 
his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Doyle.
    One of this committee's top priorities is putting consumers 
first, and one of the things I hear most from consumers back 
home is that they are sick and tired of robocalls. Consumers 
today are facing more robocalls than ever. Government data from 
2017 shows that New Jerseyans filed more complaints with the 
National Do Not Call Registry per capita than any other State 
about robocalls.
    And it is getting so bad that some experts estimate that 
almost half of all calls to our cell phones this year will be 
robocalls. And we all know how annoying these calls are, but 
they are more insidious than that. Robocalls are not just being 
made for telemarketing, some callers are trying to defraud 
hardworking Americans and seniors in particular. In some 
instances, criminals are pestering consumers with one-ring 
calls hoping that they will call the number back and incur 
excessive charges.
    And Congress has taken bipartisan action in the past to 
help put consumers back in control of their cell phones. In 
1991, Congress passed the Telephone Consumer Protection Act and 
then later authorized the Do Not Call Registry, but as 
technology has evolved robocalls and the threats they impose 
have simply increased. It is easier than ever for someone to 
begin making robocalls. Bad actors only need a smartphone with 
a few select applications to make spoofed robocalls. This means 
that existing approaches to stopping these calls may not work 
anymore.
    And so, we need to implement new call authenticity 
technologies to clear these unwanted calls from our phone 
lines. Regulators in industry need better tools to protect 
consumers and once again it is time for Congress to act. 
Earlier this year, I introduced the Stopping Bad Robocalls Act 
to turn the tide in the fight against robocalls. And there is 
no one silver bullet and that is why it is so important that we 
address this problem for every side. We have a number of bills 
that are being considered today, as the chairman said, in this 
legislative hearing.
    But with regard to my bill, the Stopping Bad Robocalls Act, 
it would require that carriers implement new call authenticity 
technologies to help ensure that consumers know who is on the 
other end of the line when they pick up the phone and 
implementing these technological solutions would also help 
consumers control who can reach them more generally.
    My bill would also update the legal definition of 
autodialer to make sure that callers can't use new technologies 
to get around the longstanding consumer protections against 
robocalls. The FCC is currently studying how it could address 
its own interpretation of the term ``autodialer,'' and as part 
of that proceeding the FCC could begin to fix the problem on 
its own. And when coming to a resolution, I would urge the 
Commission to put consumers first in this matter so that 
Congress doesn't have to redo its work.
    I am hopeful the Commission will do that and, after all, 
they took a very proconsumer approach to revision that I 
included in this legislation last Congress, and that provision 
requires the FCC to implement a reassigned number database to 
ensure that when a consumer gets a new telephone number, they 
aren't receiving the robocalls from the person that had the 
number before. In December, the FCC adopted an order to 
implement a reassigned number database much like the one that 
is in my bill and I applaud this action and I look forward to 
the FCC getting this database operational as quickly as 
possible.
    So, as I said, we have six bills today. There are some from 
Democrats, some from Republicans. One of the bills before us 
was introduced by the Subcommittee Ranking Member Latta. We 
look forward to discussing how to move bipartisan legislation 
forward. And we also have proposals from Representatives Van 
Drew, Crist, and Speier that help push the conversation 
forward, and we have two bills introduced by Representative 
Eshoo as well. So, I look forward to working in a bipartisan 
fashion to finally stop the onslaught of these annoying calls 
and appreciate the fact that we have so many Members that are 
trying to address this.
    Thank you, Mr. Chairman. Unless anyone else wants my 
minute--and I don't think so. Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    One of this committee's top priorities is putting consumers 
first--and one of the things I hear most from consumers back 
home is that they are sick and tired of robocalls.
    Consumers today are facing more robocalls than ever. 
Government data from 2017 shows that New Jerseyans filed more 
complaints with the National Do Not Call Registry per capita 
than any other State about robocalls. It is getting so bad that 
some experts estimate that almost half of all calls to our cell 
phones this year will be robocalls.
    We all know how annoying these calls are, but they are more 
insidious than that. Robocalls are not just being made for 
telemarketing, some callers are trying to defraud hard working 
Americans and seniors. In some instances, criminals are 
pestering consumers with one-ring calls hoping that they will 
call the number back and incur excessive charges.
    Congress has taken bipartisan action in the past to help 
put consumers back in control of their cell phones. In 1991, 
Congress passed the Telephone Consumer Protection Act and then 
later authorized the Do Not Call Registry. But as technology 
has evolved, robocalls, and the threat they impose, have 
increased.
    It is easier than ever for someone to begin making 
robocalls. Bad actors only need a smartphone with a few select 
applications to make spoofed robocalls. This means that 
existing approaches to stop these calls may not work anymore. 
We need to implement new call authentication technologies to 
clear these unwanted calls from our phone lines.
    Regulators and industry need better tools to protect 
consumers, and once again, it is time for Congress act. Earlier 
this year I introduced the Stopping Bad Robocalls Act to turn 
the tide in the fight to against robocalls. There's no one 
silver bullet, and that's why it is so important that we 
address this problem from every side.
    For example, the Stopping Bad Robocalls Act would require 
that carriers implement new call authentication technologies to 
help ensure that consumers know who is on the other end of the 
line when they pick up the phone. Implementing these 
technological solutions would also help consumers control who 
can reach them more generally.
    My bill would also update the legal definition of 
autodialer to make sure that callers can't use new technologies 
to get around the long-standing consumer protections against 
robocalls. The Federal Communications Commission (FCC) is 
currently studying how it could address its own interpretation 
of the term autodialer, and as part of that proceeding, the FCC 
could begin to fix the problem on its own. When coming to a 
resolution, I would urge the Commission to put consumers first 
in this matter so that Congress doesn't have to redo its work.
    I am hopeful the Commission will do just that, after all 
they took a proconsumer approach to a provision I included in 
this legislation last Congress. That provision required the FCC 
to implement a reassigned number database to ensure that when a 
consumer gets a new telephone number, they aren't receiving the 
robocalls from the person that had the number before. In 
December the FCC adopted an order to implement a reassigned 
number database much like the one in my bill. I applaud this 
action, and I look forward to the FCC getting this database 
operational as quickly as possible.
    Other than my bill, we will be discussing six other 
proposals today from both Democrats and Republicans. One of the 
bills before us was introduced by Subcommittee Ranking Member 
Latta. I look forward to hearing about his bill and discussing 
how to move bipartisan legislation forward quickly.
    We also have proposals from Representatives Van Drew, 
Crist, and Speier that help push the conversation forward. 
Additionally, we will discuss two bills introduced by 
Representative Eshoo.I look forward to working in a bipartisan 
fashion to finally stop the onslaught of these annoying calls.

    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Walden, the ranking member of the full 
committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. Thanks for having this 
hearing. And I want to thank our panelists for being here today 
to help inform our work. Nothing brings us, Democrats and 
Republicans, together faster or stronger than I think this 
issue and so we look forward to working with all of you to get 
results.
    You know, I have done 20 town halls in my district so far 
this year, and I can't think of a time that this question 
didn't come up about what are you doing to stop robocalls and 
these unwanted cell calls. And usually in the middle of those 
town halls I would get one of those as well, one of those 
calls. And so, I didn't answer it by the way, but I let them go 
to voice mail and if they don't leave a message they don't 
exist in my world.
    So, I am all for going after these like I was for going 
after those people that did the pop-up ads, remember those? 
When you try and open a software--now we are seeing who is old 
here, but the pop-up ads that would occur anytime you opened up 
your computer. I was for the death penalty for those people, 
because you couldn't get anything done. And this has escalated 
to the same place, I think, for consumers, and they have had it 
and they have rightfully had it, and we have had it. And so, 
you are seeing an all-hands-on-deck approach here.
    Now, last Congress, we passed the RAY BAUM'S Act that gave 
the FCC some additional authority in this space as well and 
that was a big bipartisan bill we joined together. I know, Mr. 
Chairman, we are going to have the FCC fully before the 
committee. This would be a good topic to raise with them as 
well because I know Chairman Pai and others are clearly 
involved in this.
    But we all benefit by the hearing today. It was a year ago 
almost to the day that we held a hearing on this very topic, 
and I think maybe, Mr. Foss, you were here for that. And we 
appreciated your testimony at that time and we shared several 
ideas on how industry could do more in this area to stop this 
scourge, and our consumers should take and make use of the 
solutions that our really bright innovators are putting 
forward. We will soon, as I say, have the FCC before us.
    I am pleased we have these bills, a wide range assortment 
of different legislative initiatives here to go after this 
issue, so I am pleased that we've got a lot of options before 
us. As we work to make this a bipartisan success, I know it can 
be under the chairman's leadership, I do not want to build a 
false expectation that these bills will end the problem, 
because that is part of what we learned out of the testimony 
from the hearing a year ago, is just how difficult this is 
because of its international component.
    Subcommittee members here know better than many on how 
communications and technologies are constantly evolving. The 
bad actors' tricks evolved beyond our Do Not Call Registry and 
will likely figure out an avenue beyond our next effort, so we 
have got to stay vigilant. However, the more friction we create 
against these criminals, and I call them criminals because they 
are, and the more focused, public-private partnerships amongst 
industry, consumer groups, and government are in rooting out 
the problems, I think we can make some real strides here and 
gain in helping American consumers.
    Lastly, while engagement of law enforcement is beyond the 
purview of our committee, that is an avenue worth pursuing as 
well as I look forward to the bills being considered today 
being further strengthened by a dialogue with our friends in 
the Senate who have also sought to engage the powers of the 
Attorney General.
    So again, I want to thank our witnesses. I want to thank 
the chairman of the subcommittee and the full committee for 
having this hearing today. And if there are Members on our side 
that would like to use my last minute and a half or so, I would 
be happy to yield. And if not, Mr. Chairman, we can get on with 
the hearing. So, I yield back, and thank you again.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Let me welcome the witnesses to the panel today. All of you 
here care deeply about the proposals before us, and all are 
working very hard to address this scourge--that has grown from 
an annoyance to a sincere peril--in your respective areas.
    In the 20 townhalls I've held across my district, it seemed 
like inevitably someone would ask ``can't something be done 
about robocalls?'' I share their frustration and remain 
committed to working with the chairman to address these calls 
with action from Congress.
    You would be hard pressed to find a technology that's more 
personal than a telephone. Whether it's the cell phone in your 
pocket, or for some, a landline at home, voice communications 
on these devices is still an important way in which we connect 
to one another. Yet that personal connection is being violated 
by bad actors using technology to hide their tracks. They 
should be treated and prosecuted for what they are, criminals. 
These criminal parties have done significant harm to Americans 
both personally and professionally.
    First, as we seek a successful effort on this legislation, 
I believe it is important to state that we make a clear 
distinction in targeting those parties that have malicious 
intent as opposed to those who do not. Our clearest and 
quickest path for enacting law is to go after those that have 
malicious intent. To go beyond that, we will undermine services 
that many Americans depend upon every day.
    Second, I want to put an emphasis on thanking the chairman 
for the process we are vetting these bills under today. By 
putting our teams together, it is a welcome return to the 
process we operated under with our friends last Congress that 
led to many bipartisan successes, one of which specifically 
sought to address malicious spoofing. As part of RAY BAUM's Act 
last Congress we provided the FCC more authority to go after 
bad actors who utilize calls and texts. A bipartisan process 
matters. We all benefit from hearing and debating each other's 
ideas. Such vetting gives us the opportunity to get to the 
heart of the problem, and not error on the side of cutting off 
legitimate use of these technologies, such as protecting the 
anonymity of a shelter assisting at-risk individuals, alerting 
you to a fraudulent use of your credit card, or providing you 
the simple convenience of interacting with your ride-share 
service.
    Almost a year ago to the day, we held a hearing on 
combating illegal and fraudulent robocalls and spoofing. We 
shared several ideas on how industry can do its part to address 
this scourge, and how consumers should make use of the 
solutions. We will soon have the FCC before the committee, and 
we will gain by their technical insight before we mark-up. I'm 
pleased that the bills we review today seek to lock in those 
objectives. As we highlighted then, we owe it to our 
constituents to present all options available to them.
    As we work to make this a bipartisan success, and I know it 
can be under the chairman's leadership, I do not want to build 
a false expectation that these bills will end the problem. 
Subcommittee members here know better than many how 
communications and technologies are constantly evolving. The 
bad actors' tricks evolved beyond our Do Not Call registry and 
will likely figure out an avenue beyond our next effort. 
However, the more friction we create against these criminals, 
and the more focused public-private partnerships amongst 
industry, consumer groups, and government are in rooting out 
the problems, we can make great strides in regaining American's 
confidence in their communications.
    Lastly, while engagement of law enforcement is beyond the 
purview of this committee, that is an avenue worth pursuing as 
well and I look forward to the bills being considered today 
being further strengthened by a dialogue with our friends in 
the Senate who have also sought to engage the powers of the 
Attorney General.
    Thank you again for my colleagues and the witness panel, 
and I look forward to another bipartisan bicameral success 
originating from this committee.

    Mr. Doyle. The gentleman yields back. The Chair would like 
to remind Members that, pursuant to committee rules, all 
Members' written opening statements shall be made part of the 
record.
    So, I would now like to introduce our witnesses for today's 
hearing. Mr. Dave Summitt, chief information security officer 
for the H. Lee Moffitt Cancer Center & Research Institute and 
Fellow for the Institute for Critical Infrastructure 
Technology, welcome.
    Ms. Margot Saunders, senior counsel, National Consumer Law 
Center, welcome.
    Mr. Patrick Halley, senior vice president, Advocacy and 
Regulatory Affairs, USTelecom and The Broadband Association, 
welcome, sir.
    And, Mr. Aaron Foss, founder of Nomorobo, thank you for 
being here today. We look forward to your testimony.
    At this time, the Chair will now recognize each witness for 
5 minutes to provide their opening statement, but before we 
begin, I would like to explain the lighting system. In front of 
you is a series of lights. The light will initially be green at 
the start of your opening statement. The light will turn yellow 
when you have 1 minute remaining, and please wrap up your 
testimony. At that point the light will turn red when your time 
expires.
    And with that, Mr. Summitt, you are now recognized for 5 
minutes, and make sure your microphone is turned on, sir.

STATEMENTS OF DAVE SUMMITT, CHIEF INFORMATION SECURITY OFFICER, 
H. LEE MOFFITT CANCER CENTER & RESEARCH INSTITUTE, AND FELLOW, 
    INSTITUTE OF CRITICAL INFRASTRUCTURE TECHNOLOGY; MARGOT 
SAUNDERS, SENIOR COUNSEL, NATIONAL CONSUMER LAW CENTER; PATRICK 
HALLEY, SENIOR VICE PRESIDENT, ADVOCACY AND REGULATORY AFFAIRS, 
 USTELECOM-THE BROADBAND ASSOCIATION; AND AARON FOSS, FOUNDER, 
                            NOMOROBO

                   STATEMENT OF DAVE SUMMITT

    Mr. Summitt. Thank you, Chairman Doyle and members of the 
committee. It is truly a privilege to be here and been invited 
to give such hopefully compelling information for you to act 
upon the problem we are seeing today. My name is Dave Summitt. 
I am the chief information security officer for Moffitt Cancer 
Center in Tampa, Florida.
    Moffitt is a highly recognized and, in my opinion, one of 
the most elite hospital, cancer hospital and care in the world. 
They treat 60,000 individuals on an annual basis at Moffitt, 
which makes them the third busiest hospital in the Nation. In 
addition, they are a National Cancer Institute Comprehensive 
Care Center, one of three--of 49, and it is truly an honor to 
be part of that organization.
    So why I am here today is to bring more of a consumer 
business portion to this problem because it is a significant 
problem. And when I first started hearing about and getting 
excited, really, about what is being proposed here for stopping 
robocalls, one of the first things that popped into my mind was 
I am not sure that the general population and the powers that 
be that can have some say into this is understanding the real 
severity level of this and that is why I want to try to bring 
this home.
    As large as we are and as much as we go through, and myself 
being head of the cyber operations at Moffitt trying to protect 
our patients and our organization and our applications, to give 
kind of an idea of the extent of this problem we process 
approximately 3 million malicious events every month at Moffitt 
on our network. When the telecom starts being part of this, it 
is just inundating as even more and it is a very bad problem. 
These aren't just robocalls for annoyance. And as much as all 
of the bills so far as addressing this problem of annoyance, 
this goes much deeper. It is now starting to impact patient 
care at facilities and healthcare across the Nation.
    In my efforts of trying to raise awareness of what you are 
doing with our healthcare community, I used our Critical 
Infrastructure Information Sharing and Analysis Centers, which 
was stood up by the Government for purposes of reaching our 
critical infrastructure. Healthcare is one of the 16 critical 
infrastructure sectors, and because of that I got a lot of 
information back from various healthcare organizations across 
the Nation saying we have a problem and behind what I am 
bringing to you today is that 18 additional healthcare 
organizations have backed what we are trying to do and support 
you with doing. And inside my written testimony, you will see 
all 18 of these.
    For an example of our problem, before I came last week, I 
had our telecommunications people pull our logs. We ended up 
with 6,600 calls in a 90-day period that were of either 
malicious intent or identified themselves as someone they are 
not. And the point I want to make about these 6,600 calls, 
these were calls that were called to us from the outside of our 
organization using our ID, our caller ID, to get into the 
organization.
    So, when you are sitting here and you are in a healthcare 
situation and you are seeing a phone call come in from someone 
inside our organization, you are going to pick that thing up. 
And that is the intent of what they are trying to do in 
reaching us. If they get legitimacy behind the caller ID, 
chances are they are going to pick up the phone. Sixty-six 
hundred of them in a 90-day period. That equated--I also pulled 
the logs of how long it took for those calls to last, 65 hours 
of time was taken just for those 6,600 calls. That is just one 
area of these calls that have been coming in.
    The other calls that we are having now and we have seen a 
ramp-up going on is that not only are they calling our 
organization with it, but they are calling our community. They 
are calling other people outside of our organization using our 
ID, using our name, and not only that but they are calling 
these people in our communities and patients. When they pick up 
the phone and they see it is from Moffitt Cancer Center they 
are being identified on the other end as Moffitt Cancer Center 
employees.
    So, if you can imagine, if they happen to get a hold of one 
of our patients and it is called Moffitt Cancer Center, they 
are absolutely going to answer that phone. And they are 
extracting information that can be detrimental to those 
patients.
    [The prepared statement of Mr. Summitt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

     
    Mr. Doyle. Well, thank you, Mr. Summitt.
    Ms. Saunders, you are recognized for 5 minutes.

                  STATEMENT OF MARGOT SAUNDERS

    Ms. Saunders. Thank you, Chairman Doyle, Mr. Latta, and 
members of the committee. I appreciate the opportunity to 
testify today on behalf of the low-income consumers of the 
National Consumer Law Center and three other national groups.
    We are here today specifically in strong support of H.R. 
946. Last month, as you know, Americans received 5.2 billion 
robocalls, the majority of which are not overt scams but they 
are unwanted calls made at the behest of American businesses 
engaged in telemarketing and collecting debts. Passage of 946 
will stop these unwanted robocalls. American businesses are 
responsible for most of the intrusive telemarketing calls 
selling car insurance, health insurance, car warranties, home 
security systems, resort vacations and the like.
    And more and different American corporations make billions 
of robocalls to collect debts. Credit card companies admit to 
making three to five calls per account per day. Debt collectors 
admit to making a billion debt collection calls every year. The 
Telephone Consumer Protection Act was supposed to protect us 
from unwanted robocalls simply by requiring that all automated 
calls can only be made to cell phones with consent or 
prerecorded calls engaged in telemarketing must have written 
consent when they are made to land lines.
    But the recent escalation in robocalls is likely due to the 
anticipated caller-friendly response by the FCC, by the Federal 
Communications Commission, to loosen restriction on robocalls, 
which is evidenced by the chart that I have on page 8 of my 
testimony, that followed the recent decision by the DC Circuit 
Court in ACA v. FCC that, among other things, sent back to the 
FCC what the technical definition of an automated dialer is.
    The calling industry's response to this decision 
illustrated by the request of the U.S. Chamber of Commerce, 
joined by 16 national industries, requested the FCC to loosen 
restrictions on robocalls. The Chamber and the other callers 
are pushing the FCC and the courts to interpret the definition 
of autodialer in such a way that it will not cover any systems 
currently in use. This is not supported by either the statute, 
the logic, or the legislative history. If their requests are 
granted, the number of automated calls will skyrocket and there 
will be no protections whatsoever against automated texts.
    And we may not be even able to tell callers to stop calling 
once we have given them our consent initially. The FCC has the 
authority to interpret these issues correctly, but Congress can 
protect consumers unequivocally by passing H.R. 946. For 
example, one clarification that 946 would make is defining 
autodialer to include the automated text messaging system that 
last year was found by the Third Circuit that sent 27,000 
unwanted text messages to one consumer to not be a covered 
autodialer. Or the 56 million automated calls by Hilton Grand 
Vacations that were to sell vacations to consumers where the 
Hilton claims these were not covered by the TCPA so that 
consent is not required.
    Other sections of 946 are also essential. We really support 
the authentication requirements, the wrong number rules, the 
limiting of exemptions and strengthening enforcement. But here 
is the dynamic. Passage of H.R. 946 will clearly and 
unequivocally address the problem of unwanted robocalls. The 
robocallers, the telemarketers, the debt collectors, and others 
will object strenuously. It is up to Congress to protect us and 
to protect the integrity of the American telephone system from 
the scourge of unwanted robocalls. I would be happy to answer 
any questions. Thank you.
    [The prepared statement of Ms. Saunders follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Doyle. Thank you, Ms. Saunders.
    Mr. Halley, you are now recognized for 5 minutes.

                  STATEMENT OF PATRICK HALLEY

    Mr. Halley. Thank you. Chairman Doyle, Ranking Member 
Latta, members of the subcommittee, thank you for the 
opportunity to appear before you today. My name is Patrick 
Halley. I am a senior vice president of Regulatory Affairs and 
Advocacy at USTelecom-The Broadband Association.
    Illegal robocalls are a major problem and it is timely and 
appropriate that this committee is laser-focused on potential 
solutions. USTelecom and our members share your commitment to 
doing everything we can to eliminate bad actors. Beyond the 
daily deluge of calls, consumer business and government agency 
numbers are being spoofed without their knowledge. And while I 
don't pretend to be as important as the Moffitt Cancer Center, 
in the last 3 weeks my number has been spoofed on multiple 
occasions resulting in calls and voice mails from angry people 
demanding that I stop calling them. Calls I never made, so I 
understand this on a personal level.
    Along with our members, USTelecom is working daily to 
enhance our knowledge about the calls that traverse our 
networks in order to block illegal calls and provide consumers 
with better information. Our efforts are designed to empower 
consumers by providing more information about the identity of 
callers and enabling them to block the calls that they do not 
want to receive. Why do we do this? Because consumers demand 
it. Because it undoubtedly reduces the ability of fraudsters to 
achieve their objectives and because it increases the 
confidence of consumers and businesses that rely on our 
networks. The idea that people aren't answering phone calls is 
not good for anybody including our members and consumers and 
businesses.
    In addition to improving the consumer experience, we are 
equally focused on facilitating coordination with Federal and 
State enforcement authorities including the FCC, the FTC, and 
State Attorneys General. By helping law enforcement agencies 
quickly identify the source of illegal callers, together we can 
bring criminals to justice. Those who blatantly disobey the law 
and who enable fraudulent activity need to go to jail.
    As the subcommittee considers potential legislative 
solutions, I would like to highlight three areas where our 
members are taking the lead in addressing the scourge of 
illegal robocalls. First, industry has undertaken considerable 
efforts to deploy call authentication technologies, commonly 
referred to as STIR/SHAKEN, that will substantially diminish 
the ability of illegal robocallers to spoof caller ID 
information. Companies of all types and sizes are deploying 
these standards into their IP networks today and will continue 
to do so throughout 2019. Once deployed, consumers will have 
more information about caller identity and the types of calls 
that they are receiving and carriers will be able to more 
accurately identify the source of calls which will improve call 
traceback efforts. Testing of the new technology and products 
is well underway.
    Second, more tools are available today than ever before for 
consumers to mitigate illegal or unwanted robocalls. A 
significant number of voice providers are increasingly 
integrating these tools into their networks and hundreds of 
applications are available to consumers on their smartphone. 
Importantly, facilities-based providers are increasingly 
developing robocall mitigation tools themselves including 
directly into their networks. For example, AT&T's Call Protect 
Service automatically blocks suspected fraudulent calls, and 
Verizon provides a Spam Alert service for wire line customers 
and has also rolled out free spam alerting and call blocking 
tools to wireless customers.
    Carriers including USTelecom members, CenturyLink, 
Windstream, Frontier, Consolidated, and others are also 
deploying a variety of additional tools across their TDM and IP 
networks, including anonymous call rejection and no 
solicitation services. Multiple providers also work with 
companies like Nomorobo with a one-click solution to facilitate 
their customers' ability to use third-party call blocking 
services.
    Third, USTelecom's Industry Traceback Group is expanding 
its efforts to identify the source of illegal robocalls and 
working in close coordination with Federal and State agencies 
on enforcement efforts. There are currently 27 members of the 
Traceback Group including traditional wireline phone companies, 
wholesale carriers, wireless providers, and cable companies, so 
it is an industrywide effort. The members also include foreign 
carriers and non-traditional voice providers.
    Recently, we significantly enhanced our ability to trace 
back calls by automating the process. The time it now takes to 
trace back an illegal robocall has been reduced from weeks to 
days, sometimes even hours. And while our members will continue 
being vigilant and proactive to combat illegal robocalls, we 
will need to continue our collaborative approach with our 
partners in government. We welcome the opportunity to work with 
Congress on additional ways we can stop these illegal scammers 
at the source and bring them to justice. Thank you and I look 
forward to answering your questions.
    [The prepared statement of Mr. Halley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Doyle. Thank you very much. Thank you, Mr. Halley.
    Mr. Foss, you are now recognized for 5 minutes.

                    STATEMENT OF AARON FOSS

    Mr. Foss. Chairman Doyle, Ranking Member Latta, members of 
the committee, thank you for giving me the opportunity to 
appear before you today. My name is Aaron Foss and I am the 
founder of Nomorobo.
    Six years ago, my idea for stopping robocalls was chosen as 
the winner of the FTC's Robocall Challenge and since then we 
have stopped over 1 billion robocalls from reaching Americans, 
and that is billion with a B. We have prevented hundreds of 
millions of dollars from being stolen from Americans and I can 
only imagine how many life savings are still intact thanks to 
Nomorobo.
    And as proud as I am of that number, I know it is just a 
drop in the bucket in solving this enormous problem. Billions 
of illegal robocalls are made every month, and there seems to 
be no end in sight. Mr. Latta mentioned that the FTC received 
3.8 million complaints every year. We stop that many robocalls 
every day and a half, right, and on a best guess we are 
protecting less than one percent of all phone lines in the 
United States.
    I am going to keep my remarks brief because I would really 
like to get down to the important task at hand which is having 
a meaningful conversation about stopping the robocall epidemic.
    So, I just want to start by stepping back in time and 
looking at how far we have come. When I first started Nomorobo, 
the industry said it wouldn't work. We would block too many 
good calls; the scammers would change tactics. Back then, the 
carriers weren't even sure that they could block robocalls due 
to FCC regulations. But we proved that robocall blocking does 
indeed work and today we are protecting millions of people each 
and every day from getting scammed and annoyed by robocalls.
    It is well understood now that a phone number reputation 
system is vital to stopping the robocall problem and yet 
robocalls are still at unprecedented levels. More still needs 
to be done. On April 15th, this year, Tax Day, we decided to 
change the game again, so we released a full, a real-time feed 
of all of the active IRS callback scammers, for free, to the 
carriers. We are publicly showing the scammers' phone numbers 
along with the recordings and transcriptions of the message 
that they are currently pushing out right now.
    We are encouraging all companies to use this data to put an 
end to one of the longest-running and most notorious robocall 
scams of all time. If the industry uses this data, in theory we 
can eliminate the IRS callback scams right now. And to launch 
it, we took out a full-page ad in the New York Times. What 
better way to tell the world about a new product. We agonized 
over every word in this ad, but specifically the headline, 
right, ``We can win the war against robocalls,'' and the ``we'' 
refers to all of us in this room today, phone companies, 
robocall blocking companies, lawmakers, regulators. If we work 
together it can be done.
     So, I am going to end with a rather radical suggestion for 
every lawmaker in this room. Every day I am asked, right, what 
kind of laws can be made? Do we need more of them? What should 
we do? So, I would just like to propose that we change the laws 
around sales robocalls from an opt-out system into an opt-in. 
Right now, you have to take action if you don't want to get the 
calls. But I believe that you should actually have to take 
action if you do want to receive them from certain parties, 
with the obvious exceptions.
    In order to make sales robocalls you must have the current 
owners' express written permission. It doesn't matter if the 
call is being made to a mobile or a landline, a residential or 
a business one. It doesn't matter if your number is on the Do 
Not Call Registry or not. I sometimes get robocalls on my Skype 
line, right, over-the-top services are now getting attacked by 
these robocall problems. If you don't have the consent, the 
answer is no. You can't legally call that person with a 
prerecorded message.
    But, honestly, this isn't the big problem. It is not with 
the legal robocallers, it is with the criminals. Mr. Walden 
said that. These are criminals. Criminals don't obey the law. 
So, I thank you again for this opportunity to talk about this 
huge problem. I have a ton of experience in this area and use 
me as a resource today or tomorrow or next week. Ask me 
anything. I am in the trenches each and every day fighting this 
battle for all Americans. Thank you.
    [The prepared statement of Mr. Foss follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Doyle. Thank you, Mr. Foss. During your testimony, Mr. 
Soto got a robocall, so there is no escaping it.
    I will now recognize myself for 5 minutes for questions.
    Mr. Summitt, let me start with you. In your testimony you 
talked about the very real risks that your organization faces 
on a regular basis from spoofed calls and how these calls are 
not only used to get members of your organization to pick up 
the phone, but also to give away sensitive information. And 
worse yet, the credibility of your organization is also being 
undermined by spoofers using your phone number and name to make 
unknowing call recipients do the same.
    Do you feel like the members of your organization and the 
patients that you treat are losing faith in the integrity and 
effectiveness of our Nation's phone system?
    Mr. Summitt. Yes, sir. I do. And the reason I say that is 
because if I am a consumer or I am a patient at Moffitt and I 
am receiving a phone call that is not Moffitt, I am losing 
faith and trust in the system. I am losing the potential faith 
in my provider that somehow data has been leaked or worse, and 
now I am picking up the phone and giving away additional 
information by thinking I am speaking to someone who I am 
legitimately doing work with. It is very much a serious 
problem.
    Mr. Doyle. Thank you.
    Mr. Foss, do you think it would be helpful for consumers if 
the phone carriers offered services like yours in an opt-out 
basis?
    Mr. Foss. Absolutely, yes.
    Mr. Doyle. Yes. And so, the people understand that, you 
know, what kinds of consumers do you think would most benefit 
from the technology that you and others have created that 
wouldn't benefit from it if the service was only available in 
an opt-in basis?
    Mr. Foss. Sure. So to start this conversation, let's just 
look at the spectrum of robocalls, right. Here are the illegal 
scams, right, the fake IRS and the fake Social Security. We can 
all agree that those completely need to be eliminated from the 
network. On the other side, it is the good robocalls--the 
police, the fire, the schools--we can all agree that those need 
to be allowed through.
    And if we just look at--and the middle part is that gray 
area, right. These are the debt collection calls. These are the 
telemarketers. Let's leave those out of this whole discussion. 
On this side of the obvious bad robocalls, they should never be 
allowed on the network. They should be kept off the network, 
ingress, egress, built in at the level.
    We don't need to be telling people that this call is a 
spam-likely call. We just need to make sure that they never get 
through. That is even what we did with our new product to the 
carriers with the IRS calls. It is roughly about 50 numbers 
that are active every single day. Those numbers should be 
blocked from the network immediately. We are providing 
recordings, transcriptions, we have proof that that is it. Why 
that can't be provided on an opt-out basis, right, protect the 
network that way? If you actually want to get these calls, turn 
it off. I think that would be a great step forward.
    Mr. Doyle. Thank you.
    Ms. Saunders, part of the narrative about robocalls that 
frustrates so many people is the notion that these calls are 
coming from overseas and efforts to shut them down are like 
playing Whac-A-Mole. However, in your testimony, you say that a 
large proportion of these illegal robocalls consumers receive 
are ultimately from or on behalf of large, well-established 
American companies.
    I think we all agree that fraudulent calls should be 
blocked, but I am curious why we receive so many illegal calls 
from established domestic companies and why those companies are 
not being held accountable under current law. Why is that?
    Ms. Saunders. So I appreciate the question. The issue I 
think nobody disagrees with what Mr. Foss says, and I just want 
to emphasize that the reason I am not emphasizing scam calls is 
because everyone else is. I am just trying to focus on the 
other calls.
    What I tried to show in my testimony, exhaustively, through 
many, many cases, is the number of calls that are made by 
existing American companies. And they obviously are making 
money from making these calls. They are making money through 
telemarketing or debt collection and they are choosing to 
continue making the calls regardless of whether or not the law, 
they are violating the law, because they think they can either 
argue in court that the law does not apply to them or convince 
the FCC that the law should not be interpreted in a way that it 
applies.
    According to the YouMail statistics, which I quote on 
Footnote 7, only 47 percent of the robocalls currently made are 
scams. The rest are robocalls, some proportion of those are the 
wanted robocalls, which we all agree. But there is a lot of--
there are 20, 30, 40 percent of calls that are unwanted that 
still need to be addressed and need to be addressed through the 
Telephone Consumer Protection Act.
    Mr. Doyle. You think Chairman Pallone's Stopping Bad 
Robocalls Act would reduce the number of those calls?
    Ms. Saunders. Yes, sir.
    Mr. Doyle. Thank you.
    Mr. Halley, I just have a couple seconds. I understand you 
are a Caps fan. I was wondering if you were at the game last 
Wednesday.
    Mr. Halley. I was and so were some of your staff.
    Mr. Doyle. How did that game--see, at least in Pittsburgh 
when we get eliminated in the first round we just lose the 
first four games and it is not as painful as when the Caps take 
you seven games and then lose in double overtime. Yes, I just 
thought I would bring that up.
    Mr. Halley. I don't want to get into a debate with you 
about the Caps or the Penguins, so let's leave that alone.
    Mr. Doyle. OK. I will yield back my time.
    Now I yield 5 minutes to our ranking member, Mr. Latta, for 
5 minutes.
    Mr. Latta. Well, again, thanks very much, Mr. Chairman, for 
holding today's hearing. Thanks again to our witnesses for 
being here.
    Mr. Halley, if I could start my questions with you, can 
carriers currently offer their consumers tools to block 
robocalls?
    Mr. Halley. They can and they do.
    Mr. Latta. OK, thank you. And how are those tools offered 
to consumers?
    Mr. Halley. Sure. You know, some of them are sort of, for 
example, with Nomorobo a lot of our companies have initiated a 
capability where a customer can just online click a button and 
it essentially activates the Nomorobo service. Some of them are 
building those solutions directly into the network, but, you 
know, through traditional marketing information they make that 
information available to companies. USTelecom also makes 
information available on our website about different solutions.
    Mr. Latta. Do consumers take the additional effort to opt-
in to these services and, if so, what is the adoption rate of 
those services?
    Mr. Halley. So they definitely do. I cannot give you a 
specific answer in terms of the actual adoption rate other than 
I can tell you given the distaste and concerns that consumers 
have they are increasingly adopting those services.
    Mr. Latta. And the bill that we have introduced in the STOP 
Robocalls Act carriers would have the ability to provide call 
blocking technology as the default standard. Would this help in 
our fight against the bad actors out there?
    Mr. Halley. So I think the ability for carriers to sort of 
on a default basis be able to block certain calls would have a 
positive effect. At the same time, I think there are some 
concerns about liability. This is a highly litigious area, 
obviously, and sort of the concerns about blocking certain 
calls on an opt-out basis could be an issue.
    So I think if we were going to do that it would be helpful 
if there was sort of a safe harbor that says, you know, if you 
are blocking calls because they are not authenticated or if you 
are blocking calls because they are known to be fraudulent 
because of certain best practices or lists, et cetera, then, 
sure, as long as there is a safe harbor I think that would be a 
good thing.
    Mr. Latta. Thank you.
    Mr. Chairman, I would like to ask for unanimous consent to 
enter into the record letters from CTIA and the American Cable 
Association for supporting this opt-out approach in the STOP 
Robocalls Act.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Thank you very much, Mr. Chairman.
    Mr. Summitt, in your testimony you mentioned that bad 
actors have fraudulently used healthcare organizations' names 
when making illegal robocalls and have even spoofed the phone 
numbers of these organizations to scam victims out of their 
personal information. I have heard of instances where private 
entities who experienced similar situations have shared 
information with Federal authorities to be helpful in 
investigating and stopping bad actors. The STOP Robocalls Act 
would help streamline this process so there is an easy way for 
entities whose names and numbers are being spoofed can alert 
the correct authorities.
    Do you think a process that is described in our bill would 
be beneficial in protecting consumers and patients?
    Mr. Summitt. Absolutely. I am in full agreement of that 
and, in fact, there is a whole movement in our cyber area as 
well across the Nation in collaborative work in sharing data 
with different places. This falls under that very same concept 
and it works. And if we had a method to where we could 
immediately call someone within the telecom community to help 
us put down some of these calls that would be one of the best 
things that we could possibly do. At present, I can give you an 
example and have in my testimony where we have tried to call 
our carrier and we do not get assistance.
    Mr. Latta. OK, thank you.
    Mr. Halley, industry has already done a lot in this space 
outside of STIR/SHAKEN and the traceback initiative. Would this 
help existing efforts in rooting out the bad actors?
    Mr. Halley. Absolutely. The more information we have about 
the identity and how to contact different carriers to make sure 
that we can effectively trace back calls and get to the source 
of the calls would be helpful.
    Mr. Latta. OK, let me follow up. On the traceback, Mr. 
Halley, on this initiative I just mentioned, I understand that 
USTelecom manages the traceback process. Can you briefly 
describe that process?
    Mr. Halley. Sure, I would be happy to. So I think one thing 
that is important to understand is, you know, if I am a, you 
know, I have an AT&T subscriber in Silver Spring, Maryland and 
I am going to call my mom who is a Spectrum subscriber in Port 
Orange, Florida, it is not the case that a call just goes from 
one carrier and--boom--it just ends up with the other carrier, 
right. There are often multiple carriers, transit companies 
involved.
    So, I will initiate a call which will be handed off to one 
carrier who will then hand it off to another carrier and then 
it will ultimately arrive at the final destination. So, the 
traceback process is all about figuring out who the source of 
the call was. And the way we do that is we identify, OK, this 
number was dialed, this was terminated at this number. Who did 
the call come from upstream? And once we identify that person, 
we then identify who did the call come from prior to that 
upstream, all the way back to the source of the original call.
    And so, what we are able to do is determine, based on who 
was called and the number that they were called at, who was the 
actual carrier that originated that call and therefore who was 
the source of that call. And that is extremely helpful and we 
work every day with the FTC and the FCC and States to help them 
with information about who are enabling these calls from a 
carrier side and from the actual source.
    Mr. Latta. Well, thank you very much.
    Mr. Chairman, my time has expired and I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the chairman for holding this hearing 
and I thank the witnesses this morning. Your testimony is very, 
very good and very informative.
    Mr. Summitt, despite the growing attention on the annoying 
and abusive problem of robocalls, the number is actually 
increasing. We have been hearing that. I am hearing it from my 
constituents. As we move forward with these bills, it is 
important to understand what is driving this increase. Would 
you say that the increase in fraudulent robotics, robocalls is 
due to the success in these calls in scamming money and getting 
more money? Do you think that is why we are seeing the increase 
or that is part of it?
    Mr. Summitt. The tactics are getting more sophisticated. If 
I can reach the masses with legitimacy, I am going to have a 
better result. And I can tell you, I entered the healthcare 
field from a Defense Department career after 21 years and I 
have been in the healthcare field for 8 years. When I entered 
that I was actually manager of a telecom of another hospital 
system. I did not see this problem 8 years ago. If it was 
there, it was very low. Now we are in a time where it is so bad 
that we are impacting patient care.
    Mr. McNerney. It must be that these folks are making money 
doing it.
    Mr. Summitt. They are making money and they are doing it on 
the backs of our patients and other consumers and in that 
process they are hurting us very, very badly.
    Permit me for a moment, but one of the things that I am 
hearing here, we have capabilities today. Our technology today 
can do things to help put this down and I am asking for that to 
be pushed forward faster than what it is. When Mr. Halley's 
describing going from carrier to carrier to carrier and you 
have the traceback function, there is already the admission 
that we have the capability to know where these phone calls 
come from. It can be done. Why are we not pushing this forward 
at every phone call and making that part of the protocol of the 
communications that go from carrier to carrier to carrier?
    And when I receive that on the end and I am getting a phone 
call from the U.S. Department of Justice, why am I not 
expecting for that phone call to be actually from the U.S. 
Department of Justice?
    Mr. McNerney. OK, thank you.
    Mr. Halley, following up on the chairman's comments on the 
threat that these phone calls are making our phone system 
obsolete, do you expect to see technological strides in curbing 
unwanted phone calls coming in time to prevent the loss of 
faith in our Nation's phone system?
    Mr. Halley. I do. I think we are doing everything we 
possibly can as an industry in close collaboration with 
government to address this problem. As has been stated, there 
is no--by the chairman--there is no silver bullet. This is 
going to require a combination of efforts from call-blocking 
services to traceback efforts and to, you know, authentication 
of the calls so that we know when a call is being made it is a 
real number not a spoof number.
    And if we can do that, we can, you know, we can address the 
fact and figure out how to deal with calls that are being 
spoofed, including blocking them. So, there are a lot of things 
that are being done that will do this in a timely manner.
    Mr. McNerney. So with the STIR/SHAKEN technology that 
should allow consumers to see the ID of the phone call that is 
coming in, how much does a consumer need to get involved to 
protect themselves using that technology?
    Mr. Halley. So it should be transparent to the consumers. 
This is just a very technological protocol that is sort of in 
the background. And what it will do, just to be clear, is it 
will provide information about the authenticity of the call in 
the sense that the call is a real number that has been dialed 
and it has been verified. It is not a number that has been 
spoofed.
    It doesn't in and of itself block the call, right. It is 
just providing more information. It is providing the carriers 
more information so that they can determine, you know, what 
policies they are going to adopt with respect to calls that are 
not authenticated and it is going to provide more information 
to third-party analytics providers and ultimately to consumers 
so they can know----
    Mr. McNerney. The consumer is going to need to know what is 
going on so they can decide which phone calls to answer.
    Mr. Halley. Absolutely. And there is going to be a consumer 
information component to all that too as to what it means when 
they are getting different information about what kind of a 
call it is.
    Mr. McNerney. Mr. Foss, do you believe that the Government 
and innovators have the tools to keep ahead of this arms race?
    Mr. Foss. That is a good question, right? Like technology 
always outpaces legislation and regulation, right, it has to, 
so these criminals are always going to be one step ahead. Our 
system is very adaptive, right, again we just saw the rise in 
neighbor spoofing a couple of years ago. When we first started 
out it was purely a blacklist system. Blacklisting doesn't work 
against the neighbor spoofing, right, those calls that look 
like they are coming from your area code and exchange.
    So, I think that third-party providers like us, the 
carriers, all the organizations, if we had the framework to be 
able to do pieces of that then we can stay ahead of the 
changes, because I can guarantee, right, the only constant is 
change itself. The only thing I can guarantee about robocallers 
is that they won't stop, right. They will just keep on changing 
their tactics until they get through no matter what anybody 
does.
    Mr. McNerney. OK, thank you, Mr. Chairman.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate you 
having this hearing today. It is a very important subject.
    Mr. Halley, do I have that right? Halley, is that the right 
pronunciation?
    Mr. Halley. Halley, like Valley with an H.
    Mr. Johnson. Halley, OK. You know, unwanted calls are not 
the only type of unwanted communications that people receive. I 
am sure every one of us in this room receives hundreds of 
thousands of emails per year that are unwanted and some might 
even be from scammers and fraudsters. What makes the phone 
system different and makes people more vulnerable to falling 
victim to these scams?
    Mr. Halley. I think there is, you know, first of all, it is 
real time, right, so you don't have the opportunity to just, 
you know, decide whether or not you are going to ignore it, 
which is fairly easy in an email. And it is also just a highly 
personal communication, right, when somebody is calling 
sometimes with information about you specifically designed to 
trick you into doing something, right.
    And so, there is just a certain element of the types of 
communications you get on a phone that are just fundamentally 
different than over via email.
    Mr. Johnson. OK. Continuing with you, Mr. Halley, I think 
we can all agree that we want to go after bad actors and ensure 
that legitimate business communications can continue while the 
FCC and industry considers how to implement STIR/SHAKEN and 
call blocking and labeling technologies.
    Do you see any value for consumers in having the ability to 
receive information about their healthcare, updates about their 
financial situation, or things like school closings that could 
potentially be mislabeled or blocked if analytics don't work 
properly for call blocking and labeling technologies?
    Mr. Halley. Yes. I think it is important that all the work 
we do here, while we are getting smarter and smarter about the 
types of calls that are going over our networks and the 
analytics providers get better and better every single day, we 
do have to be careful not to block legitimate calls for 
certain.
    Mr. Johnson. OK. Are there steps carriers are taking to 
ensure that calls are not mislabeled or improperly blocked?
    Mr. Halley. Absolutely, on a daily basis. I can tell you 
that Mr. Foss' companies and others in the space, the analytics 
companies, work regularly to determine how to ensure that we 
are blocking the calls that should be blocked, but not blocking 
the calls that should get through.
    Mr. Johnson. OK. What is the current process for unblocking 
or fixing mislabeled calls?
    Mr. Halley. Sure. All the members that we work with have a 
process in place where a legitimate business can contact them 
to, you know, essentially protest the fact that a call is being 
blocked and try to make sure that the numbers that are being 
blocked are unblocked. I will say it is a subjective process, 
right. I think we need to be careful because we absolutely 
don't want to block calls that are legitimate and that might be 
from a school or a bank alerting me to a fraud or anything else 
that is positive. Just because somebody comes to a carrier and 
says, ``Hey, that was a legitimate call, unblock me,'' we have 
to be careful, right. And so, we have a process in place to 
figure out how to handle that.
    Mr. Johnson. I can tell you, you know, from a personal 
note, even something as simple as a potential scam or fraud 
alert on a call is very, very helpful to me. I mean I am not 
going to call out my carrier in a public hearing like this, but 
I can tell you that I have probably over the last 3 months 
begun to get alerts on certain phone numbers from my carrier 
saying, ``Hey, we think this is a scam or a fraud alert.'' And 
I can ignore that call and, you know, throw it aside. I don't 
worry about it.
    So, I can tell you that that is at a minimum is helpful to 
me. Continuing on, Mr. Halley, how does call blocking and 
labeling from carriers, such as many of your members, differ 
from call blocking and labeling from third-party app providers 
like that of Mr. Foss' company, Nomorobo?
    Mr. Halley. Sure. So I think ultimately the technology 
behind call blocking and call labeling is similar whether it is 
something that is being done in a carrier network and, in fact, 
our carriers are working with third-party analytics companies 
to build these capabilities directly into our networks. I don't 
think there is technologically a difference, it is just a 
question of how it is being implemented.
    I don't know if you want to----
    Mr. Foss. Yes, if I could chime in. Yes, absolutely. Nobody 
wants the good calls stopped, right, nobody. We all want the 
bad calls stopped to all those pieces working together, right. 
In theory, everybody should have the same data like, you know, 
2 weeks, 3 weeks, everybody can go and look back and say that 
was a robocall. The thing that we think that is going to be the 
main thing is detecting those very, very quickly.
    So, there is the question, right, if we had a kind of a 
head-to-head, right, who is detecting them quicker or who is 
more accurate and things like that again working together that 
is ultimately where this comes in.
    Mr. Johnson. Well, as an IT guy, I can tell you I am 
extremely inquisitive about the technology that lets you 
identify what those potential robocalls are, but we can't get 
into it now because my time has expired.
    Mr. Chairman, I yield back.
    Mr. Doyle. I thank the gentleman and he yields back. The 
Chair now recognizes Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. I do want to thank 
Chairman Doyle and Ranking Member Latta for convening this 
hearing today, and also want to thank all these great witnesses 
here. This is obviously a huge problem for our constituents.
    Like one of our other Members, Mr. Walden, he mentioned he 
had 20 town halls. I have had 20 Coffees with your Congressman. 
I can't say that in every single one this has come up, but in 
most of them it has especially in a place like Iowa where we 
have an aging population. I am aging myself and so I get a 
disproportionate number of these damn calls as well.
    And, you know, I have--I sit here and I think, well, I have 
a cell number that I didn't think anybody had. I am a Member of 
Congress. How did this happen? Well, they can get through to 
all of us. That is the thing. It is just quite amazing. And we 
have got to have this relief, there is no doubt about it, 
because I do hear about this all the time. And it is a 
bipartisan problem because every one of our constituents, you 
know, could potentially be faced with this problem going 
forward.
    I am glad that we have got a lot of these bills that we are 
talking about today. And it does seem like there are some 
technological limitations to the scope of these bills, so I do 
want to raise the question of what to do for the folks who 
don't have the latest and greatest technology, whether that 
means cell phones and smartphones with screens or home phones 
with some form of digital output. It strikes me that the 
Americans who are likely to lack these new technologies are 
likely to be older and potentially more vulnerable to the very 
sorts of criminals who call with a bogus story about owing 
taxes to the IRS or claim of a loved one in jeopardy or 
whatever the case may be.
    So, to that point I have a couple questions for everybody. 
I am not going to pick out anyone in particular, I will just 
let you folks go at it. I do want to discuss the challenges and 
limitations for implementing STIR/SHAKEN to the widest possible 
consumer base. I understand that gateways might be helpful on 
older networks. How could the use of gateways help make sure 
that rural customers in particular get access to these new ways 
to stop robocalls?
    And I will just open that up to the panel and let you folks 
jump in.
    Mr. Halley. So I think it is one of the limitations on the 
STIR/SHAKEN framework is that as it is currently designed, the 
STIR/SHAKEN standard works for IP traffic. It doesn't work for 
the TDM, you know, traffic that is the older copper networks 
and so that could have an impact on folks who are more 
dependent on the traditional telephone, you know, copper line 
telephone service.
    With that being said, that is the current limitation on the 
standard and it is also important--two of the things I 
mentioned in my testimony, you know, no solicitation services 
or anonymous call rejection services, those will work over 
anything whether it is a TDM network or an IP network. And so, 
services like that if the number, if somebody has purposely 
masked their caller ID the call doesn't get through. Or if 
somebody doesn't go through the process of there is a human 
element before somebody actually it rings, there is a step has 
to be taken that this is, in fact, a real call.
    So, there are things that can still be done to address that 
kind of traffic even though the current STIR/SHAKEN standard 
wouldn't be effective.
    Mr. Loebsack. Anyone else? Yes, go ahead, Mr. Summitt.
    Mr. Summitt. Yes, implementing STIR/SHAKEN in our 
organization would require us to basically redo our front end 
of our telecommunications system because we are not up to speed 
with that new technology. And we have looked into it, but the 
point is we are just one organization across the Nation to get 
this implemented and for every dollar I spend in trying to 
protect our organization or redoing infrastructure is a dollar 
away from care and research.
    Mr. Loebsack. Anybody else? Yes, go ahead.
    Mr. Foss. For our solution, right, we piggyback right now 
off of simultaneous ring. It is available in theory on TDM, on 
IP, on mobile, on landline, right. We like the idea of being 
completely backwards-compatible. In theory, instead of like a 
gateway we could somehow do the STIR/SHAKEN lookup on behalf of 
the technologies and the carriers that can't support that. How 
that would play out, not exactly sure.
    But it is absolutely, I think, important to--everybody just 
looks at the latest and greatest. You know, you have the brand-
new, you know, fancy cell phones, but there are still tons of 
landlines and those are sometimes even more vital than even the 
mobile lines.
    Mr. Loebsack. That is right.
    Ms. Saunders, do you have anything you want to say?
    Ms. Saunders. The only thing I would like to point out, if 
I might, is that STIR/SHAKEN is a critically needed technology 
but it will not take care of all the problems of identifying 
who the callers are. As was explained in an article in the New 
York Times just last week, callers also have the ability to buy 
hundreds of phone numbers that are essentially anonymous. And 
when one number is caught by this technology, they just switch 
to another phone number.
    Mr. Loebsack. And I see my time is up. I apologize I have 
to interrupt, but I don't want us ever to forget about rural 
folks and older folks. Thank you very much and I yield back. 
Thank you.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman. And thank you 
all for being here and hopefully this won't take the whole 
time.
    Mr. Summitt, you mentioned cases of criminals disrupting 
hospital business operations and committing financial fraud 
including by robocallers using spoofed numbers identical to the 
hospitals in order to gain sensitive patient information, which 
is not only bad at face value but it erodes trust between 
patients and their healthcare providers. As you put it, these 
calls are identified as a reputable source such as law 
enforcement or a government entity which is what heightens the 
likelihood of success.
    I don't mean to put you on the spot, but Mr. Engel and I 
this year introduced a bill on 9-1-1 swatting. It is the Anti-
Swatting Act. You may know that swatting is a hoax on an 
emergency services dispatcher using a form of spoofing. These 
perpetrators will call police forces and in some cases a SWAT 
team to a target's home and there have been cases where there 
have been tragic loss of life. And I have actually been a 
victim of swatting myself, early on.
    I want to keep the theme today of moving with narrow, 
effective legislation aimed at bad actors, but public safety 
testified last year in support of this legislation because it 
would clearly define perpetrators for the criminals that they 
are. Have you had a chance to review that legislation? It is 
fine if you have not, but, if so, would you have any issue with 
something like that moving along with some of the others here 
today?
    Mr. Summitt. And I apologize, I have not reviewed that 
specific one.
    Mr. Kinzinger. That is fine.
    Mr. Summitt. I have read every one being presented to here 
and but I have not read that one, but I would be in support of 
something to do that. And the other thing I just want to 
quickly say about all this, it is--I am not necessarily saying 
that we need to dump all this back on the telecoms, but I am 
saying we have technologies today that can and why are we not 
putting into place giving the callee, the recipient, enough 
information to know whether I want to answer this phone call or 
not. Again, if I see that caller ID, fine. It is my choice 
whether to answer that call or not. But I need to know that is 
who the person is. By protecting--and the arguments have been 
there are some legitimate reasons why they shouldn't be known, 
fine, let's put those as anonymized or restricted and it still 
gives me the responsibility to say I am going to answer or not 
that call.
    Mr. Kinzinger. Thank you. Mr. Halley, your written 
testimony states that fines are sufficient to curb the scourge 
or, I'm sorry, insufficient to curb the scourge of robocalls. 
Why do you think fines are not enough to curb these bad actors, 
and is it that fines could be steeper but enforcement is 
difficult or what do you attribute that to?
    Mr. Halley. Sure. I think what you have heard today is that 
there are sort of a range of different types of robocalls, 
right.
    Mr. Long. Pull your microphone closer.
    Mr. Halley. Sure. I think what you have heard today is that 
there are range of different types or robocalls, some that are, 
you know, from businesses who are conducting business for 
legitimate reasons, and then you have a significant portion of 
which are just blatantly illegal, and then some cases blatantly 
trying to commit a fraud. As Mr. Foss said, they don't care 
what the law is. And we can talk all we want about how the TCPA 
should be interpreted, et cetera, but they are not going to pay 
attention. They are just going to dial millions and billions of 
robocalls.
    And so, the point there is, you know, we can double or even 
triple the fine under the act for those types of calls. They 
don't care.
    Mr. Kinzinger. Yes. You are never going to be able to track 
it down.
    Mr. Halley. So, we have to take these people and figure out 
how to put them in jail rather than impose fines on them.
    Mr. Kinzinger. OK, so when we are going after these actors 
I understand that the authorities they only have a statute of 
limitation of about a year, I guess, to actually bring charges. 
What are your thoughts, you kind of went into this, on how to 
increase that time of statute of limitations so the good guys 
can do all they can to go after these folks, and what are the 
benefits or risk of expanding any statute of limitations?
    Mr. Halley. I think we are supportive of expanding. There 
are different bills that have different, whether it is 2, 3, or 
4 years, et cetera, and some of the bills handle it 
differently. But as a general matter, we think that making sure 
the FCC, the FTC, State AGs, have sufficient amount of time to 
go back and take action against bad actors is important. And as 
technology is developing, and I completely agree with what you 
said that there are solutions and we are working every day to 
implement them, sometimes the actual legal process just takes a 
long time. And so I think we are in favor of enhancing the 
statute of limitations.
    Mr. Kinzinger. Excellent. Thank you all for being here and 
I yield back, Mr. Chairman.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. McEachin for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman. I want to thank you 
and Chairman Pallone for convening today's hearing on this 
issue that is--that all of our constituents care deeply about.
    Today, unwanted robocalls are not only ubiquitous and a 
nuisance, they can be predatory. While some actors rely on 
robocalls to provide important information about appointments, 
school closures, and other matters, spam and phishing calls 
remain a problem. And as we have already heard today, we have 
got steps that providers can take to mitigate these spam calls 
on their own. SHAKEN/STIR technology and other innovative 
products like Nomorobo that aim to verify and authenticate 
calls are offering a promising start.
    As Mr. Loebsack identified, we have some concerns about 
rural areas. And I want to start off, I guess, by asking Mr. 
Halley--is it, did I say that right, ``Hailey''?
    Mr. Halley. Hailey, Halley, whatever you want is fine with 
me.
    Mr. McEachin. Well, how----
    Mr. Halley. Valley with an H.
    Mr. McEachin. Well, how does your daddy pronounce it?
    Mr. Halley, thank you, sir. Are there models in Europe that 
we could be looking at that would allow us to use technology 
like SHAKEN/STIR in rural areas that are copper-dependent, as 
you suggested that is a current limitation of the technology 
now. How do we expand it into rural areas? What can we do? It 
is my understanding there might be models in Europe that we 
could emulate.
    Mr. Halley. So I don't know the answer to that question, 
unfortunately, but I would be happy to answer that after the 
hearing.
    I don't know if anyone else knows about European?
    Mr. McEachin. I was going to turn to Mr. Foss. I thought in 
sort of your piggyback on there that you suggested there are 
some ways that Nomorobo can be adapted to I think you said 
older technologies. You may not have said ``older 
technologies'' but that is what I heard. Is that correct?
    Mr. Foss. Yes, absolutely. And again, if we are at the 
network level, right, as Mr. Halley was saying is that each 
call is kind of passed throughout the different levels of the 
network, right. If we had something that was again a spam scam 
filtering at the network level, even higher up, right, those 
results would trickle down to all of the phones in the network 
whether it is rural, whether it is landline, whether it is 
mobile and absolutely protect those constituents.
    Mr. McEachin. Now what can we do here in the Congress to 
help provide an atmosphere to allow that type of technology to 
move forward? Because you look at my district, I represent the 
4th district of Virginia and yes, we have good urban 
populations and centers, but we also have wide swathes of rural 
Virginia which we tend to call Southside Virginia.
    How do we make, get that technology spread to Southside 
Virginia which is again mostly rural?
    Mr. Foss. Sure. So why don't I tell you about the 
difficulties that I have when we talk to some of the carriers, 
right, what are some of the objections, what are some of the 
things that they are concerned about. And again, Mr. Halley 
knows it, right. Number one is, are we only blocking the calls 
that should be blocked, right.
    So again, if you were to use our entire database, right, 
the 1\1/2\ million numbers that we have there, are there a 
swath of robocallers in there that should or should not be 
blocked? It is up for debate, right, that we are an editorial 
service, our users say that we do not, you know, they do not 
want to get these calls, therefore they are hiring us, right.
    If there were things like safe harbor, if there was more on 
the legal side, right, that is even with our IRS offering, we 
are making a transcription and a recording, you know, today 
what that number is, the message that is being pushed out, that 
should give the carriers enough confidence to be able to say, 
``Yes, we can shut this down at the network level.'' And again, 
Mr. Halley can probably shed some light on that of if there was 
a safe harbor, if there was something where, you know, using a 
data provider like us or their own internal things and they go 
and do this that there wouldn't be the legal ramifications if 
something did go wrong.
    Our false positive is, last month was 0.07 percent, right, 
less than a tenth of a percent. Our users know that it is very 
accurate. Our accuracy was over 97 percent, right, we only 
missed like 3 percent of those calls. But that would be what I 
would think if the carriers, whenever we go to a carrier and 
say, ``Hey, go and integrate this,'' they are definitely 
worried what happens if we stop good calls. We know the answer 
that you are not going to, but I think that that would give the 
industry more impetus or more encouragement to use services 
like us.
    Mr. McEachin. I appreciate you and I appreciate you all 
being here today. Thank you, Mr. Chairman. I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. I really 
appreciate you holding this hearing.
    This is something that is affecting all of us, but 
particularly our seniors what they are going through. 
Inexcusable what is happening, particularly, Mr. Summitt, your 
testimony with regard to Moffitt which is in my area. Sixty-six 
hundred calls in 90 days and that information, I mean and our 
patients, cancer patients, you know, they are being, again, 
tricked into these calls and they are giving the information. I 
mean I would give information out too if Moffitt were calling 
me. I would think it would be legitimate.
    So we have got to do something, and I appreciate you 
holding the hearing. And we are doing something, we are 
responding, so I appreciate it, in a bipartisan fashion. At the 
same time, again, Mr. Foss, at the same time, I do have 
concerns about legitimate, consented robocalls being 
inadvertently blocked. How often do legitimate calls 
inadvertently get blocked and how quickly can they be 
identified and remediated?
    Again, I am concerned about the healthcare related 
robocalls where you remind an individual that their healthcare 
appointment is the following day or what have you. So, if you 
can give me an answer I would appreciate that.
    Mr. Foss. Yes, absolutely. So the other piece about like 
modern robocall blocking, we keep on saying the word 
``blocking'' and ``stopping'' and, you know, the stopping at 
the network level, right, never letting those calls even get 
through, those should be for the ones that we are 100 percent 
guaranteed, we have proof, we have recordings, we have 
transcriptions, those can be stopped at the network level.
    Even with Nomorobo, so on our landline product, if you are 
on our list you get a challenge question. It is called a 
captcha. You have to--it says this phone is protected by 
Nomorobo, please type the number 72, 6, right, humans can 
always get through. If a doctor's office is calling with a 
person that accidentally gets on, they can actually get 
through. It rings the number.
    On mobile, we actually, since we are an app, we don't block 
the call. It just gets sent directly to voice mail, at which 
point even like with some of the newer phones it shows the 
transcription right there. So, the risk of that message not 
getting through is actually incredibly small.
    Mr. Bilirakis. OK, very good. Again, I appreciate the 
approach of better information sharing between FCC and industry 
in Mr. Latta's STOP Robocalls Act. I would like to work with 
him, he is a good friend, on more specific public-private 
partnership ideas as it continues through the process.
    Mr. Foss, does your company have a working relationship 
with the Federal Communications Commission or the FTC to notify 
appropriate officials when you have specific identified bad 
actor, a bad actor, so they may review it for potential 
charges? If not, is this something you would consider?
    Mr. Foss. Yes, absolutely. So, our genesis, right, I won a 
competition from the FTC, right. We as a company, me as an 
individual, we owe them kind of a debt of gratitude. We are 
always willing to work with FTC, FCC, and law enforcement just 
in general. So, I can say that when we will detect a scam that 
is, let's say it is purporting to be from the FTC or from 
Social Security Administration or the IRS and things, we will 
reach out proactively to those organizations.
    Right now, with the IRS one, we are making that automated. 
They can go and see the numbers that are actually going and 
doing that. What we found also works even better is working in 
reverse. So, think about the way that law enforcement has 
traditionally gone after these robocallers, right. They have to 
get subpoenas and subpoenas and kind of follow the traceback 
and going back and forth, and by that point the trail kind of 
goes cold.
    I was on a panel with Consumer Reports and one of the 
attorney generals said that it sometimes takes up to 50 
subpoenas to get one of these. What I encourage any law 
enforcement that reach out to us is we will tell you right now 
the calls that are coming through, right. You want to know the 
calls that are being made to people in Florida. You want to 
know the ones that are purporting to come from Florida or Texas 
or do you want IRS calls that are hitting people in Florida.
    We have a honey pot, right, we have a quarter of a million 
phone lines that belong to us. We regularly send in real time 
those calls to law enforcement, so I have no idea what they do, 
right. Do they answer them? Do they trace them back? Do they--I 
don't know. But those kinds of partnerships and those kinds of 
teamwork, again, as part of that. And I have gone on record, 
right, there are a lot of public records where we have helped 
with a lot of those cases, gotten them shut down based on the 
data that we provided to law enforcement.
    And again, we don't charge for any of that. That is just 
kind of part of our job is what we think.
    Mr. Halley. If I could just add one thing to that which is 
that one of the reasons we set up the USTelecom Industry 
Traceback Group is to avoid the 50-subpoena problem. So, what 
we are able to do is rather than having somebody have to go to 
each individual carrier who may be in the call path and 
subpoena each of them individually, because the Communications 
Act provides for this we can do the whole traceback from 
involving every single carrier who is involved in that call 
without having to go through a subpoena for each one of them. 
And we work very closely daily with the FCC and the FTC to 
provide referrals and provide that kind of information 
specifically to address that problem.
    Mr. Bilirakis. Very good, thank you.
    I appreciate it, Mr. Chairman. I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to start with Mr. Summitt. In your written 
testimony you note that Moffitt employees receive 6,600 
external calls identified as coming from one of Moffitt's own 
internal numbers. And if I am understanding you correctly, you 
mean that Moffitt got 6,600 calls that were spoofed in what 
would seem to be an effort to trick employees at your hospital 
into believing that they were speaking to another employee 
when, in fact, it was a fraudster on the other end of the line; 
is that correct? Yes?
    Mr. Summitt. Yes, sir. That is correct.
    Mr. Pallone. Can you explain why this spoofing of this type 
poses such a problem for your institution and for the security 
of a patient's information?
    Mr. Summitt. Sure. There is a wide variety of those types 
of calls coming in and, quite frankly, when I mentioned this to 
our telecom people and we were reviewing the logs, they kind of 
chuckled because this is just one area and it is more than 
6,600 of these calls. This is just one identifying themselves 
as Moffitt coming into Moffitt.
    So, the reason this is dangerous is that internally if we 
are looking at our caller ID and we see someone from Moffitt 
calling, we are going to pick that phone call up. They have 
already won the first step in attempting to get information. 
And what they are doing is several different ranges of schemes 
going on. It will either be until I try to identify someone 
else in Moffitt that they can potentially get to by asking for 
a doctor by name and the location he is located in or a 
researcher by name to get into the research area, or they are 
actually asking information about patients and their patient 
information and their insurance information.
    Mr. Pallone. All right. Well, I appreciate that.
    Now, Mr. Halley, your association, The Broadband 
Association has been in the forefront of bringing the telecom 
industry together to work on the robocalls problem. Under my 
bill, the Stopping Bad Robocalls Act, the FTC would issue rules 
requiring carriers to adopt call authentication technology like 
SHAKEN and STIR, and that tech would hopefully make it 
substantially more difficult for spoofing to continue on the 
scale that we are seeing today. So, can you explain how call 
authentication tech works and how it would help fix the 
robocall problem, please?
    Mr. Halley. Yes, I would be happy to. And I am a telecom 
lawyer not an engineer, and luckily the people who are in 
charge of the STIR/SHAKEN protocol are all really smart 
engineers.
    At a high level it involves inserting information into the 
headers involving calls and the exchange of tokens, 
essentially, between companies as call traffic, as a call 
traverses through multiple networks. And in a nutshell what it 
enables functionally is that when a call is originated, that 
originating carrier who is generating that call is able to 
authenticate that the call is being made with a real number 
that is not a spoofed number. And then that carrier is telling 
everybody else in the chain, this is a legitimate call from a 
real telephone number that hasn't been spoofed.
    And as long as everybody else in the call path has also 
implemented that protocol, it will continue to be passed from 
one carrier to the next with that information all the way to 
the end recipient.
    Mr. Pallone. Well, thank you.
    And then my last question is to Ms. Saunders about 
autodialer. The FCC is currently considering how to interpret 
the definition of an autodialer that Congress adopted in '91. 
And, in my opinion, it is critical that the FCC put consumers 
first to ensure that robocallers aren't given a loophole to 
make more calls.
    So, let me ask Ms. Saunders, what is the most important 
thing the FCC needs to understand when it comes to clarifying 
the definition of an autodialer and why is it important that we 
get our call authentication requirements right and we get this 
technology deployed?
    Ms. Saunders. The Telephone Consumer Protection Act is a 
consumer protection act. And given that, the FCC which 
implements the act should be required to implement its 
regulations and its interpretations to protect consumers, not 
to protect robodialers. The FCC currently has before it, dozens 
of petitions as I have mentioned requesting a loosening of the 
interpretations of autodialers in such a way that no 
autodialers currently being used would be covered.
    So I think it is essential that the FCC remember that fact. 
It is clear from the litigation from the courts that there is a 
perfectly legitimate way to interpret autodialer to cover the 
autodialers that are being used so that consumers continue to 
be protected.
    Mr. Pallone. All right, thank you so much and I thank the 
panel. I thank you, Mr. Chairman.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. Thanks for holding this 
hearing.
    Whenever people come up to me at home, there are two things 
that they want to tell me, which the other side of the aisle 
won't understand one of these things, the other one they can 
relate to. But they say, ``Keep supporting Trump. Stick behind 
Trump. Support the President.'' That is always pretty much to a 
person what they say. The second thing that they say is, ``When 
are you going to do something about these robocalls?'' So, it 
might be different in other districts across the aisle, but 
that is the two questions. I imagine they probably get that 
second question.
    And my staff yesterday when they were preparing for this 
hearing, they had a question for me. They said, ``We are doing 
the robocall deal tomorrow. Tell us about some of the robocalls 
that you get.'' Well, the thought that popped into my mind was 
Elizabeth Barrett Browning's, ``How do I love thee? Let me 
count the ways.'' How do I get robocalls? Let me count the 
ways. We all get a ton of robocalls.
    But I have a question for everyone on the panel if you can 
help me with this, because this is a robocall that I get. It 
has slowed down a little recently, but the total call, it is 
always a voice mail and it starts by ``Or,'' with the word 
``Or,'' ``Or to be placed on our Do Not Call list, press 2.'' 
Can any of you enlighten me what they are getting at or what 
they want? Or I have never pressed 2, I have always just 
pressed block call on my iPhone. But are you all familiar with 
that call and what is the scam?
    Ms. Saunders. So the Do Not Call Registry, which is a part 
of the Telephone Consumer Protection Act, requires that 
telemarketers ask--first of all, it prohibits calls unless you 
have consented in writing to the calls. But it also requires 
that they ask you if you want to be placed on their internal Do 
Not Call list. And if you answer yes, then they are required to 
put you on that list and prohibited from calling you again.
    You are smart to not press 2, because that just alerts them 
that you actually are a live person and that they will call you 
again.
    Mr. Long. Well, that is all they are phishing for is the 
fact that you are----
    Ms. Saunders. Yes, they are phishing, because they are 
obviously already not complying with the law or they wouldn't 
have----
    Mr. Long. Well, there is no message. There is no, like, you 
know, for life insurance, a million dollars' worth of life 
insurance for a dollar a day, you know, press 1 to hear about 
that. The whole message is, ``Or to be placed on our Do Not 
Call list, press 2.'' And I was just----
    Mr. Foss. Yes. So my thought here is that your--since you 
are saying it is going to voice mail, your voice mail message 
is probably pretty long. And so those autodialers will start 
playing the message when it detects, when it thinks that a 
person has picked up and said hello, and that is when it will 
start playing the message.
    So if your message is, you know, ``Hi, I am not here right 
now. If you need to reach me go over to here''----
    Mr. Long. I don't think I have a message. I think my mine 
is an auto message, but anyway.
    Mr. Foss. Well, whatever it may be, right? So that 
actually, if you answered that call you actually might find out 
the whole thing right there. This is the thing. Everybody 
thinks that these robocallers are like super smart and things. 
On the business side they absolutely are. On the blasting these 
calls out, it is just, you know----
    Mr. Long. While I have your microphone turned on there, on 
your Nomorobo what regulatory authority do you operate under?
    Mr. Foss. We don't, actually, right, there are none because 
we are a third-party service that the consumer is getting into 
a relationship directly with us.
    Mr. Long. And again, I know you have been asked this 
before, but how do you ensure legitimate calls go through with 
your service?
    Mr. Foss. Yes, so is it perfect? Absolutely not, right, our 
false positive last month was less than a tenth of a percent. 
And then we will go in, if we get reports then it will get on 
to our white list, our black list is automated. But, 
effectively, if the consumer doesn't like what we are doing, 
right, they cancel the service. They don't use it anymore.
    Mr. Long. And I think for Mr. Halley if they would have, if 
the staff would have just put on your card ``Hal Lee,'' like 
Hal was your first name, Lee was your last name, everybody 
wouldn't have had a problem. But I recommend that for next 
time.
    But, Mr. Summitt, before I run out of time here, I 
appreciate very much what you do in the cancer world. From a 
father of a Hodgkin's lymphoma survivor, I know how important 
those calls are that you get and how frightening it is when you 
are first diagnosed and you are expecting a call from the 
hospital.
    Do you have any cause or should we have any cause for 
concern that when the hospital is calling to set up an 
appointment that we get that call instead of thinking that it 
is, you know, it may say your name on there and we think, well, 
that is a scam because we have heard it is a scam. Is there 
anything that we need to be cautious of or anything that we 
would vote on that we need to be sure and protect that your 
calls to remind people of appointments will get through?
    Mr. Summitt. And I appreciate that question because that is 
one of our concerns is that I am afraid that if you are 
expecting a call from us and it turns out to be someone else 
and you have given away information, then I am just--then that 
problem is just going to add more to your problems that you 
have. And my concern is that those calls if it continues, they 
are going to stop.
    So, my recommendation on anyone receiving any call from a 
healthcare organization is to call back the organization and 
make sure that it is a legitimate call.
    Mr. Long. OK, thank you.
    Mr. Chairman, I am out of time. But if you want me to say 
anything later, just press 2.
    Mr. Doyle. I thank the gentleman. I polled our side. No one 
has ever got that first question asked of them.
    The Chair now recognizes Mr. Veasey for 5 minutes.
    Mr. Veasey. Thank you, Mr. Chairman.
    You know, one of the things that I have noticed that I 
thought was very interesting is that there are a lot of 
recommendations on here that would ask for providers and for 
telephone companies to make certain provisions that would make 
consumers less subject to these calls, requiring voice service 
providers to provide free effective caller ID authentication 
for all calls, requiring telephone companies to provide free 
call blocking services, establish an unblocking system that 
consumers can control calls, and submit regularly to the FCC 
about the implementation of some of these consumer protections.
    But the question that I wanted to ask you is that when 
other industries like, for instance, in the alcohol industry 
where they have taken on, you know, anti-drunk driving, anti, 
you know, binging campaigns where tobacco companies have been 
required to make certain advertisements and what have you in 
efforts to prevent, you know, teens from smoking and to make 
their products, you know, less likely to fall into the hands of 
underage smokers, do you think that requiring telecom 
companies, not telecom companies but telemarketing companies, 
to maybe step up in this area and put money behind some of 
these campaigns dealing with call blocking and what have you 
would be a more effective way to go?
    Ms. Saunders. Is that for me?
    Mr. Veasey. Yes.
    Ms. Saunders. I appreciate the question. I think if we are 
unable to get telemarketers to comply with the law to even get 
consent before they call, I doubt whether we would actually be 
successful in getting them to pay the system to block their 
calls. I represent low-income consumers and I am very aware of 
the potential cost on small phone companies and their necessity 
of transferring those costs to the lowest income consumers who 
then would have trouble even affording their telephone.
    We have not previously discussed this, but one idea that we 
have had, and I speak for a number of consumer groups, is that 
in recognition of the fact that my telephone is only useful if 
I can call many other people, the telephone system in the 
United States has long had a Universal Service Fund under which 
all telephone users contribute a small amount to support small 
telephone users' development and it has been used in a variety 
of ways.
    We would suggest that the Universal Service Fund be 
investigated as a potential source of money for those very 
small companies or very poor phone companies to help them pay 
for the technology that would allow them to implement these 
protections. Because the entire system is only as strong as its 
weakest link and until we get all the systems in the country up 
to the same level, we are all vulnerable.
    Mr. Veasey. You know, I know that there have been certain 
States, my colleague here to the left, Representative Clarke, I 
know that her State of New York, that they have passed State 
legislation or attempted to pass State legislation to deal with 
this issue.
    My question is that with this being an interstate commerce 
issue, is having a Federal law something that is really going 
to be required to really clamp down on this even more or do you 
think State laws on their own are effective?
    Ms. Saunders. So I have been involved with your colleagues 
in New York in working on the New York law. There are many 
similarities between that law and Mr. Pallone's law, bill, or I 
should say between the bills. I do think that unquestionably a 
Federal bill will be the fastest and most efficient way to deal 
with this problem.
    Mr. Halley. I would agree with that. Whether it is in this 
context or another context, as a general matter on these sort 
of interstate communication services if we can have one 
national Federal framework to govern these issues I think that 
is ideal, so I would agree with my colleague.
    Mr. Veasey. And in closing with my last question here, 
until we can get these companies to, you know, to clean up 
their act and pass laws to prevent them from doing the spoofing 
and the unwanted calls, do you think that there needs to be 
more of a public education campaign?
    One of the areas that really concerns me is senior, or 
senior citizens. I know that, you know, they obviously get 
targeted all the time. I know my grandmother died earlier this 
year. She was 106, she died earlier this year and, you know, 
she got numerous calls like all the time from telecom 
companies. Is there--but I don't see much out there as far as 
advertisements or public service announcements warning people 
about these calls.
    Ms. Saunders. If I might, I think public education is 
always valuable, but I have a personal situation where my very, 
very smart mother-in-law was taken in thinking that her 
grandson, my son, was calling her from Canada in jail. She was 
at the bank withdrawing money until someone--and she runs 
several businesses. So I am not sure that public education is 
something that we can rely on here.
    Mr. Veasey. That is amazing. OK, thank you.
    Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mrs. Brooks for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing.
    Ms. Saunders, I actually have a family member who had the 
same thing happen to him. And so, while education is critically 
important and strengthening our laws are really important, one 
thing as a former U.S. attorney I would like to talk about, 
because what hasn't really come up in any of the hearings so 
far is where has law enforcement been in all of this.
    And I am very curious, and that is what one of the bills, 
H.R. 721, is a Spam Calls Task Force Act. But what I am really 
curious about, and I think, Mr. Halley, in your testimony, in 
your written testimony you talked about the Justice Department 
and we need more criminal enforcement actions. Is it happening? 
Are U.S. attorneys and the Justice Department, have they in the 
last 8 years, to what Mr. Summitt's point it has really 
accelerated in the last 8 years. Can we point to any cases? Has 
anyone gone to jail, been prosecuted?
    These may be complex cases, because they may involve 
national actors and international actors and does anyone know 
about anything relative to that? Mr. Halley?
    Mr. Halley. So the short answer is not enough is happening. 
We are seeing a lot of efforts out of the Federal 
Communications Commission through forfeiture penalties and 
going after companies who are breaking the law. Even in that 
instance, you know, when somebody fails to pay their fine it is 
incumbent upon the Department of Justice to go collect the 
funds, so there is more work that could be done there.
    But also----
    Mrs. Brooks. Those would be civil forfeiture sentences.
    Mr. Halley. Exactly. So, on the criminal side, not--no, 
there hasn't been a sufficient amount of activity to go after 
criminal actors. The FTC has a separate authority. They have 
also taken a significant amount of actions on the civil 
authority side, but there has not been a sufficient focus on 
folks who are, you know, blatantly illegally breaking the law, 
committing fraud, et cetera, in my opinion.
    Mrs. Brooks. I assume they may be very difficult cases to 
put together. Does anyone know about any cases?
    Ms. Saunders?
    Ms. Saunders. The FTC has brought 151 cases in the last 10 
years.
    Mrs. Brooks. Criminal cases?
    Ms. Saunders. No, civil cases.
    Mrs. Brooks. OK.
    Ms. Saunders. The FCC has brought a smaller number. I would 
posit that unless you can get the criminal cases instigated, 
and unfortunately U.S. attorneys and district attorneys are 
generally more concerned with going after different kinds of 
crimes----
    Mrs. Brooks. I understand.
    Ms. Saunders [continuing]. That the best enforcement is 
private enforcement. It is not popular, but if you arm 
individuals who have been harmed by these scams and by these 
unwanted calls with the ability to go into court and force the 
people who have been harassing them to pay penalties, that 
creates at least a financial incentive to comply with the law. 
That is for the non-scam calls.
    So, I agree with what has been said that the only way you 
are going to deal with the scam calls is to criminally 
prosecute them. But it is about half and half.
    Mrs. Brooks. Any other comments, Mr. Foss?
    Mr. Foss. Yes.
    Mrs. Brooks. On criminal enforcement?
    Mr. Foss. I am a big fan of an ounce of prevention, right, 
rather than a pound of cure. It seems like enforcement to me is 
the pound of cure. If we were to put an ounce of prevention 
into the network level, I think that we would see a marked 
reduction in these predatory scams.
    Mrs. Brooks. Mr. Summitt, I have a question because you 
have been a cyber expert for a long time, can you share with us 
though how--what your concerns are particularly with hospital 
cases and with hospital systems? Is the primary concern the 
identity theft that is taking place or is the primary concern 
that--because I think, you know, the Justice Department has 
been involved in the past, and long in the past when I was in 
the Justice Department from '01 to '07, we were very focused on 
identity theft.
    And I am just curious whether, you know, are you hearing 
from your patients and others that it is the identity theft or 
is it actual, has any patient care actually been impeded?
    Mr. Summitt. It is across the board, Congresswoman. Patient 
relationships with our providers and the patients themselves 
are being impacted. The trust factor is there. We have people 
that have heard the worst news of their lives coming into our 
organization and to add on top of that anything else is not 
going to go well for that patient. So we see this as absolutely 
affecting patient safety and patient care especially when it 
starts interrupting our workers inside the facility by 
receiving these calls and then having to deal with them.
    There are so many different avenues that this is impacting 
that this is why I am excited that we are finally getting--that 
I am able to give you the idea of what is going on in the real 
world right now.
    Mrs. Brooks. Thank you. I think we need the prevention 
beyond the cure. I yield back.
    Mr. Doyle. I thank the gentlelady. I would note that the 
Wall Street Journal reported that the FCC levied $208 million 
of fines against telemarketers. They have collected $6,790 of 
that 208 million. Remind them not to ever hire them for my debt 
collectors.
    The Chair now yields 5 minutes to Mr. Soto.
    Mr. Soto. Thank you, Mr. Chairman. And during this 
committee hearing I received a robocall myself. Thanks for 
recognizing that we are all being inundated by these calls. 
Apparently, if you own property in Florida there are lots of 
real estate speculators who want to buy it. I guess that is a 
good sign for my district at least.
    If we can talk about one thing that is definitely 
bipartisan, it is annoying robocalls. We have heard it 
throughout so many of my colleagues today, but particularly 
when we are talking about it being sort of the presupposed 
fraud and crime it becomes a big issue. You know, we are 
particularly honing in in my office on fraudulent healthcare 
calls and one of the, I think one of the budget submissions we 
have submitted on healthcare is to the Federal Trade Commission 
on fraudulent healthcare calls.
    The committee is aware of growing practice of robocallers 
targeting healthcare providers and patients in an effort to 
commit financial fraud. In some cases, callers use spoof 
numbers making it appear like they are calling from a hospital 
or a physician office and seek to obtain sensitive health-
related or other financial information about patients. It goes 
on from there.
    But I want to thank one of our guests today who work with 
us to help put that together. That is Mr. Dave Summitt, thanks 
for being here today. You are the CIO overseeing cybersecurity 
at H. Lee Moffitt Cancer Center in Florida, so welcome up from 
our State. One of the busiest cancer centers in the United 
States, ranked by U.S. News and World Report as one of the top 
ten cancer centers in the United States and you are under 
constant attack by this, attempts to get people's health 
information.
    So, would language like that be helpful in moving the FTC 
along to help partner with you in this area, and how are they 
doing right now as far as helping with what you are trying to 
achieve to protect people's information at Moffitt Cancer 
Center?
    Mr. Summitt. So, Congressman, just clarification, I am 
Chief Information Security Officer at Moffitt.
    Mr. Soto. Oh, we gave you a raise there.
    Mr. Summitt. You gave me a raise. Thank you, I appreciate 
that and hope the people back home are hearing this.
    Mr. Soto. Chief Information Security Officer, OK.
    Mr. Summitt. And now I have kind of lost the question.
    Mr. Soto. So how is the--would language like this directing 
the FTC to particularly hone in on fraudulent calls related to 
healthcare be helpful and how have they been partnering with 
you currently?
    Mr. Summitt. I wish I could say that we are combating this 
effectively on a daily basis. But we are so inundated with this 
particular problem and the other problems that we have just in 
cyber on networks and network attacks and software attacks that 
we just do not have the bandwidth to sit and do this on a daily 
basis. That is the damaging part of this. We cannot combat this 
alone.
    I do believe that these bills that I have been reading has 
a lot of great things in each one of them that when we start 
working together here, we are going to be able to solve this 
problem. And I do believe we have the technology right now to 
solve this problem, if not heavily curb it. I would like to see 
some more activities specifically within our critical 
infrastructure and healthcare to have additional tools on our 
behalf to help us with this fight. And I do believe the FCC and 
the FTC can absolutely step up and help us out with this along 
with the telecoms and along with the third parties. But, so one 
single solution isn't the answer here.
    Mr. Soto. Thank you, Mr. Summitt.
    Now I recently was able to block some of those calls I was 
getting about these real estate solicitations. I just want to, 
for the record, for Ms. Saunders, Mr. Halley, and Mr. Foss, 
what phones don't have a blocking function and how do you feel 
about requiring all new phones to have a blocking function?
    We will start with you, Ms. Saunders.
    Ms. Saunders. My understanding is that most landlines do 
not have a really robust blocking function.
    Mr. Soto. OK. Is that a consensus among all of you?
    Mr. Foss. Yes.
    Mr. Soto. Are there other types of phones that don't have a 
blocking function right now?
    Mr. Foss. Also like feature phones, flip phones that are, 
you know, old school cell phones. The modern smartphones from 
Android, from Apple, those operating systems allow app 
developers to build those in. But effectively any other device, 
nothing is built in.
    Mr. Soto. So these are really where the battle lines are 
formed.
    Mr. Halley?
    Mr. Halley. I was going to say, but that doesn't prevent 
carriers from trying to build in network blocking solutions so 
that the call never actually gets through, regardless of what 
kind of device the consumer has. And we are actively working on 
those types of solutions as well.
    Mr. Foss. Even for it is at the network level where they 
are piggybacking off of certain services like caller ID to go 
and show an indicator that it is a robocall, at least that is 
giving information to the landlines that would say something 
like ``robocaller,'' or to the feature phones. So yes, don't 
let the perfect get in the way of very good.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here.
    And I keep my smartphone out here to see what is going to 
come in here as a spoof. My carrier, I know, catches a number 
of calls, but I regularly keep this to remind myself that the 
spoof does come in. I don't get to answer many of the calls 
that come through. I choose to let them go to voice mail if it 
happens, and most don't. So, this is an important hearing and a 
hearing that hopefully solutions will come because this is a 
great tool, but it is sure wasting our lives in many ways.
    Today's hearing is a great start in addressing this growing 
problem. There are several bills on today's hearing which each 
add different ideas to the conversation. While this is 
promising, we need to remain focused on the larger problem 
first as we piece together legislation. Illegal spoofed calls, 
not calls that may be legitimate, but unwanted, it is critical 
that we not conflate the two.
    Mr. Halley, the STIR/SHAKEN standards that telephone 
carriers are implementing is a great first step at tackling 
clearly illegal spoofed calls. As we try to capture other types 
of spoofed calls in addition to nonexistent area codes or 
unassigned numbers, how do we stop bad actors while maintaining 
flexibility and consumer choice?
    Mr. Halley. Thank you for the question. So, implementation 
of STIR/SHAKEN across the network is critically important as 
you have just identified. The other things we can do are making 
the types of analytics tools, whether they are provided in our 
carriers' networks or over the top, available to as many people 
as we possibly can.
    And the other third piece I would mention, two others, 
really, one is the Industry Traceback Group, making sure that 
all companies are participating in the Industry Traceback 
process. And one thing I should say is, you know, Mr. Summitt 
has suggested that there are solutions to solve this problem 
and I agree. Not everybody participates in the traceback 
process, all right. There are times when we initiate a 
traceback and we can figure out the call ended at carrier A who 
received it from carrier B, and then when we get to the next 
one in the chain, they are not a part of a group, some of them 
refuse to participate and so that is a problem.
    And so, efforts via the legislative process to provide more 
information and to encourage participation in that traceback 
process would be really important. And as I have said, in 
addition to that, sort of going after the root of these illegal 
robocalls and putting some folks behind bars would be a helpful 
solution as well.
     Mr. Walberg. Along that line, with technology constantly 
advancing faster than we can really keep up with it, how do we 
ensure that our regulations as well keep up with advances in 
technology?
    Mr. Halley. So to me the key is flexibility and not over-
prescription, because whatever the current standard is it is 
going to be different 5 years from now because we will have 
learned the way in which people try to get around it and we are 
going to need to as an industry be able to quickly and flexibly 
update the protocols and update the processes in which we 
operate. And so, to me, the thing we need to be careful about 
is just that if we are going to have any sort of requirements 
whether they be congressional or FCC that we do so in a manner 
that ensures sufficient flexibility for industry, because even 
we are going to have trouble keeping up with the bad guys. 
Certainly, government is going to have trouble as well.
    Mr. Walberg. OK, Mr. Foss, would you like to add something 
to that?
    Mr. Foss. Yes, absolutely. I would caution on any of these 
laws and regulations, right, don't get into the weeds. Let us 
get into the weeds. Even Mr. Soto was asking, do we need to 
make certain exemption or focus on healthcare and things like 
that, like let us do the heavy lifting. If you do a broad 
definition, what is an autodialer, what is a violation, when 
does that occur, that would be really, really helpful for all 
of us.
    Mr. Walberg. Mr. Summitt?
    Mr. Summitt. Yes. And I would also add to that not just you 
guys get in the weeds, get us involved in the community and in 
these businesses and in our critical infrastructure as part of 
that discussion, I think, is just so very, very important. I 
think the support of the task, 721, the task force, is going to 
be a great thing in moving this forward and that is where you 
get the interagency together and that is, I believe, one of the 
key things in getting your legislation defined here.
    Mr. Walberg. Mr. Halley, are there any things that you see 
in specific that aren't in these bills that we are meeting 
around today?
    Mr. Halley. Yes. So, I think we are supportive of the 
objectives of the legislation generally across the board. There 
are certain details which we might offer suggestions, and we 
have had productive conversations with the staff or the 
sponsors in the committee and we appreciate that opportunity 
and we will continue to have that discussion.
    Mr. Walberg. Thank you. I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. I thank you, Mr. Chairman, for convening 
this important hearing to examine some forms of abuse of 
robocalls--I'm sorry--consumers in my district receive daily 
and I do too. In fact, I was thinking we don't even answer the 
phone anymore whether it is cell or landline if we don't know 
the number. We will look it up on the computer and check it, 
but we just don't do that anymore.
    I often hear similar concerns from Arizonans about this 
issue. As a former small business owner, I recognize that 
businesses have certain reasons in which they need to contact 
customers for legitimate purposes. As a former law enforcement 
officer, I also recognize there are bad actors today trying to 
scam consumers and these bad actors need to be held accountable 
for their actions. While some bad actors may be based beyond 
our borders, we need to ensure our Government has the resources 
it needs to protect Americans nationwide.
    Mr. Halley, I would like to recognize and commend the 
industry for taking proactive steps to develop call 
authorization technology to stop the influx of unwanted 
robocalls. While STIR/SHAKEN tools are starting to be adapted 
by carriers, in your view, do smaller wireless carriers in 
rural communities face any roadblocks to adapting these new 
technologies?
    Mr. Halley. Well, the protocol is the protocol regardless 
of who the provider is, but I will say that there is a cost, 
right, associated with implementing the software and upgrading 
your network. As a general matter, when new technology is 
rolled out among, you know, the entire industry, you know, 
advancements tend to happen faster with the larger providers 
first, and sometimes there are issues of equipment availability 
and vendor availability.
    So I think we need to be on the lookout for making sure 
that solutions are available on a timely manner and in a cost-
effective manner for all providers, but particularly with the 
smaller providers where that may be a problem.
    Mr. O'Halleran. Thank you. And also, Mr. Halley, in your 
testimony you state that there are acute need for aggressive 
criminal enforcement against illegal robocallers at the Federal 
and State level and that fines alone are insufficient. How can 
section 5 of H.R. 946, of which I am a cosponsor, be enhanced 
to provide broader enforcement for robocall violations?
    Mr. Halley. Sure, so the legislative efforts here that are 
looking at enabling folks to go after first-time offenders, I 
think, is positive consideration, of increasing the forfeiture 
penalties is something definitely that should be looked at. I 
will say with respect to the FCC's collection issue, one of the 
challenges they face, just to give them some credit, is they 
can issue forfeitures, but once somebody decides not to pay it, 
they are then dependent on the Department of Justice to go 
after those bad actors in court which sometimes can create an 
issue.
    So, I think the way that it can be advanced would be to 
recognize that in addition to things we can do on the civil 
enforcement side, there may be things we can look at whether it 
is, you know, directing the Department of Justice to form a 
specific group to specifically go after illegal robocallers 
that are committing fraudulent activities, for example. I do 
agree that the legislation that is looking at requiring the 
Attorney General to lead an interagency effort is a potentially 
positive step as well.
    Mr. O'Halleran. And just as an aside here, there has been 
so many times in our history as a country whatever the issue is 
that we talk about enforcement, but we really, truly don't get 
down to enforcing because of the complexity of the system or 
the lack of personnel or the lack of funding, whatever it is. 
We can talk all day, but if we don't know how to enforce it and 
really put the funds forward, then we are just telling the 
consumer out there that we really don't want to get this dealt 
with.
    Mr. Summitt, I just want to thank you for sharing your 
compelling testimony with us on the difficulties your 
organization faces with the influx of robocalls you receive 
while you are trying to focus on your mission of saving lives.
    Mr. Chairman, I believe we have a duty to bring relief to 
consumers who have been the victims of malicious robocalls from 
bad actors. I look forward to working with my colleagues on 
legislation like H.R. 946 to address this pervasive issue once 
and for all. And I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Gianforte for 5 minutes.
    Mr. Gianforte. OK, thank you, Mr. Chairman. I thank the 
panelists for being here today for this important topic. 
Montanans reasonably think that being on the National Do Not 
Call List means they won't get called, except they are getting 
called, a lot, and they are sick and tired of it.
    Alvin, a 70-year-old man from Kalispell, receives over 20 
calls a day. His provider allows him to block 12 numbers; 
clearly that is not enough. Connie in Missoula asked me to get 
back to her about an issue by email, not by phone. Why, because 
she is getting inundated with robocalls and doesn't pick up her 
phone. A young woman in Bozeman received a call from her little 
brother's phone number, but it wasn't her brother. It was a 
scammer calling from her little brother's number. 
Unfortunately, her little brother had died of a heroin overdose 
a couple of months previously. She was shaken and shocked.
    It is an indictment on the system that a young woman gets a 
call from a scammer using her deceased brother's phone number. 
I look forward to solutions and I am encouraged by the 
conversation today to end this practice so no one has to go 
through what this young woman did. There is a bipartisan 
agreement here and I think this needs to be fixed. I look 
forward to working together with my colleagues to get it fixed.
    So, I want to focus, continue the conversation on law 
enforcement and what we need to do to help, and I will start 
with Mr. Halley. You mentioned the need for increased criminal 
enforcement in this area to quickly crack down on bad actors. 
Can you explain what you think can be done to better empower 
law enforcement to go after bad actors?
    Mr. Halley. Sure. Look, there is the TCPA. There is the 
Truth in Caller ID Act. There are other consumer protection, 
you know, fraud prevention laws that are on the books. I think 
as much as anything it is not so much that we need to change 
the law as it is that we need to recognize that if this is, in 
fact, such a big issue, it is not just a nuisance issue, right, 
it is a real issue that affects not just healthcare 
institutions but banks and many other industries as well that 
are having similar problems, we need to recognize that.
    It is not just about a nuisance. It is about real crime, 
real fraud. And for those types of calls, I think we just need 
to sort of double down and quadruple down on our commitment to 
actually enforce laws and go after those who are committing 
crime.
    Mr. Gianforte. OK.
    Mr. Foss, would you like to add anything to that?
    Mr. Foss. Yes, so this kind of a forum, the enforcement 
side doesn't seem to be working as strongly as the prevention 
side. So, I would just, you know, do we need all the prongs of 
this, absolutely. I don't know, I don't have any specific 
recommendations over there, right. The things that I always 
usually suggest are looking at this problem from different 
angles, right, looking at with the new technology. Don't look 
at it, this is a very different type of crime that is being 
perpetrated. It has been traced back and things need to change 
nowadays, and again things that like USTelecom are doing and 
things and having new tools like our honey pot and things like 
that. I think that we can absolutely do that.
    Mr. Gianforte. OK.
    Mr. Halley. I would just say we can probably do more and we 
are now doing more also at the State level, really coordinating 
with State Attorneys General as well for particular incidents 
that are going on within the State borders.
    Mr. Gianforte. OK.
    Mr. Summitt, anything you would add?
    Mr. Summitt. Sure. Technology can solve a lot of things, 
but it can't--it is not the end-all. It is not a hundred 
percent. And as much as I would like to agree, I would 
respectfully disagree with enforcement. Even though enforcement 
has not been as effective as it can be, I think the reason is 
we don't have enough information going forward to prosecute 
some of these things.
    And, quite frankly, when I am getting 6,600 calls in a 90-
day period, I can't do a traceback on 6,600 calls nor does a 
telecom want me to give them every time this happens. So, 
enforcement side of this and getting the latitude to the FTC to 
pursue with cooperation from us providing data to them is a key 
part of this.
    Mr. Gianforte. OK. And again, I want to thank the panelists 
for being here today for this important topic. And with that, 
Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Ms. Eshoo for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman. And I apologize to the 
committee members and to those that are testifying that I 
haven't been able to be here for most of the hearing. I am 
chairing a hearing upstairs on the cost of prescription drugs 
in Medicare.
    What I am struck by is that the United States of America 
saw to it that a man landed and walked on the moon in 1969, the 
year my first child was born, and I just can't accept the fact 
that we can't really rid people of the harassment of robocalls. 
I do believe in technology and I think that enforcement and 
technology together are the set of bookends that we need in 
this.
    To Ms. Saunders, in your written testimony you say that the 
NCLC supports the HANGUP Act which I am very grateful for. As I 
mentioned in my opening statement, the Fourth Circuit Court of 
Appeals decided that the loophole that my bill repeals is 
unconstitutional. Can you just spend a moment on why there is 
still a need for the legislation now that the Fourth Circuit 
declared the loophole unconstitutional?
    Ms. Saunders. Yes, thank you, Ms. Eshoo. The HANGUP Act 
would undo a really grievous harm to the TCPA which exempted 
all calls made to collect Federal Government debt from the 
requirement of consent. We have seen, I would say, hundreds of 
cases by student loan collectors, generally, who are harassing 
not just borrowers, but also friends and neighbors and wrong 
number calls with unmercifully high number of calls. And we 
have actually even submitted a complaint to the FCC asking them 
to deal with it which they have not.
    Ms. Eshoo. What was their response?
    Ms. Saunders. None.
    Ms. Eshoo. Ah.
    Ms. Saunders. There was no response.
    Ms. Eshoo. There you go.
    Ms. Saunders. So we strongly support the HANGUP Act.
    In response to your specific question, we have 11 circuits 
in this Nation, one circuit has not declared the TCPA's 
provision exempting these calls from the consent requirement as 
unconstitutional. But the callers themselves routinely defend 
actions brought against them for illegal robocalls by saying 
this whole statute is unconstitutional and that was the goal in 
this case. So, this good decision in the Fourth Circuit may not 
stand. It may be overruled en banc. It may be overruled by the 
Supreme Court and may be differed with by other circuits. The 
HANGUP Act is still essential.
    Ms. Eshoo. Thank you very much.
    To Mr. Foss, thank you for--I read your written testimony 
and I loved how you just came to the point. Usually written 
testimony is encyclopedic and so yours was just a pleasure. It 
was like I just turned the page once or twice and I was done. 
But there was a lot packed into it.
    Mr. Foss. I just get down to business. I don't know.
    Ms. Eshoo. Yes, how do you deal with spoofing? So, 
specifically, if a robocaller uses my phone number to mask 
their identity, would your technology blacklist my phone number 
even though I haven't robocalled?
    Mr. Foss. No. So, we don't really care if a phone number is 
spoofed or legitimate, it is real, we care about the calling 
patterns. So, in that case, if somebody spoofs your number and 
is now making, you know, tens of thousands of calls in an hour, 
well, then it is going to get on our blacklist while that 
attack is happening, right. Once that attack, once they go on 
to someone else's number it drops off our blacklist and there 
is no harm with that.
    Ms. Eshoo. So your blacklist deals with volume?
    Mr. Foss. Correct, because that is the best--volume as well 
as content. So again, if we see a small volume but we have a 
recording, we have a transcription, we know what is going after 
that, that is one way that your reputation will go down. The 
most obvious way is just when you start seeing these high-
volume calling patterns.
    Ms. Eshoo. I see. Well, thank you for your important work.
    To Mr. Halley, much has been discussed today or I think it 
has given the testimony about the problems with voice-based 
autodialers. What are your members doing to ensure that 
Americans still have landlines that are protected from 
robocalls?
    Mr. Halley. Sure, so we are building----
    Ms. Eshoo. There are still a lot of people that have them.
    Mr. Halley. Absolutely, there are.
    Ms. Eshoo. I know my kids don't understand it at all, but--
--
    Mr. Halley. Right. No, I have one and it is an old 1980s-
style phone and my son just looked at it and started to talk 
into it, and it didn't work. It was pretty funny.
    Anyway, we are doing a lot. So, we are building in 
technology into our network so that even if the phone itself, 
for example, is an older phone, the network has the capability 
to block calls that are unwanted or illegal. And, you know, we 
are looking at solutions like anonymous call rejections 
services for those types of older services where if the number, 
if somebody who is calling has specifically stripped their 
caller ID, it won't go through.
    Ms. Eshoo. How much of a dent do you think, I mean the 
universe, say, is a hundred percent robocalls on landlines, 
what would you estimate what you have done has put what 
percentage of a dent into it?
    Mr. Halley. Well, you have to start with the percentage of 
calls that are over landline which are----
    Ms. Eshoo. I understand.
    Mr. Halley [continuing]. Extremely small. So, for that 
remaining portion of calls that do come over land----
    Ms. Eshoo. It is a lot to people that just have a landline 
though.
    Mr. Halley. Of course, for those individual callers, sure. 
You know, look, for those people who have opted in to the 
solutions that I am talking about it has made a huge dent. The 
calls either don't get through or they have a lot more 
information about the call so that they can make a decision as 
to whether or not they want to answer it or not.
    In terms of whether or not, you know, 10, 20, or 90 percent 
of customers have actually taken those services, I don't know, 
but it is rising every day.
    Ms. Eshoo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Doyle. The gentlelady yields. Ms. DeGette, you are 
recognized for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. I was up at 
a hearing in Natural Resources and I apologized to them for 
being late because of I was here earlier. And everybody in the 
room on both sides of aisle says, ``We need to do something 
about robocalls.'' So this is something that I think that is 
striking everybody in America.
    And I have always wondered about what, exactly what the Do 
Not Call Registry did. And I also think, and I am just going to 
say this in public, I think that the Do Not Call Registry had 
real benefits but it had some real shortcomings. And, in my 
opinion, one of the shortcomings that it had is it allowed 
campaigns to exempt themselves. So, I get called on a frequent 
basis by candidates wanting me to record robocalls for them to 
send out and I won't do it because I think that robocalls by 
politicians maybe should be even more illegal than robocalls 
from everybody else.
    But in any event, that is what I want to talk to the panel 
about today is the national no call registry because it seemed 
like it was making some real impact for a while, but now it 
seems that--and even at its most effective points consumers 
didn't realize things like politicians and others could still 
make calls under the Do Not Call Registry. And I am wondering 
if we pass some of this legislation that we are considering 
today, are we going to have some of the same shortcomings that 
we have found with the Do Not Call List?
    So, Ms. Saunders, I wanted to ask you, do you think that 
Congress and the FTC did enough to prepare the public for what 
the Registry would and wouldn't do?
    Ms. Saunders. I am afraid that I am not familiar with 
exactly what the FTC and the FCC did years ago.
    Ms. DeGette. OK.
    Ms. Saunders. I can tell you--I can answer more about what 
is currently going.
    Ms. DeGette. Tell me what is--yes, well, tell me about the 
current situation.
    Ms. Saunders. So I think the Do Not Call Registry is good 
if it could be enforced.
    Ms. DeGette. Right.
    Ms. Saunders. Unfortunately, there is the--the private 
remedies for enforcing it are not nearly as good as the private 
remedies for enforcing the rest of the TCPA. Senator Durbin on 
the Senate side is proposing a bill that will make the remedies 
somewhat equivalent. The FCC has the authority to expand beyond 
telemarketing and include other calls in the prohibition to 
landlines. They could potentially do that or one of the bills 
that are pending today could allow that expansion.
    Ms. DeGette. Right.
    Ms. Saunders. The New York bill that is currently pending 
would prohibit all automated calls and prerecorded calls to 
landlines and residential, to landlines and cell phones and 
business phones, regardless of content if they are automated, 
unless there is consent or there is an emergency. So, there are 
different things that can be done.
    Ms. DeGette. What would you think would be the--not 
commenting on the specific bills, but what kind of a paradigm 
would be the most important paradigm for consumers, do you 
think, for Congress to pass?
    Ms. Saunders. I think that has been recognized here today 
we are dealing with two sides of a problem. We have three kinds 
of calls that are being made----
    Ms. DeGette. Right.
    Ms. Saunders [continuing]. To borrow Mr. Foss' analysis. 
One are the wanted reminders and legitimate business calls that 
we want to make sure are allowed through. For those calls, as 
long as consent has been provided there is no problem. Then on 
the other side are the scam calls which whether that is 30 
percent or 47 percent, clearly, they need to be stopped.
    Ms. DeGette. Right.
    Ms. Saunders. That is probably best stopped with a caller 
authentication problem and the technologies that Mr. Foss and 
others implement. For the rest of the calls which 30, 40 
percent, those are telemarketing and unwanted debt collection 
calls, we need a very strong Telephone Consumer Protection Act 
that will create the financial incentive for the callers to 
comply with the law. In the meantime, with call authentication 
and effective tracebacks we will be able to catch them because 
we will know who they are.
    Ms. DeGette. So, Mr. Halley, do we have the technology to 
be able to carry out that kind of a paradigm?
    Mr. Halley. Yes, we do.
    Ms. DeGette. Mr. Foss is also nodding yes.
    Mr. Halley. Yes, we have the technology. Now what is 
incumbent on some of the things that I have been talking about 
today is carrier participation. So USTelecom members actively 
participate in tracing back calls, for example, not all of them 
do and not every carrier is necessarily implementing, you know, 
all the different tools and solutions that we are talking 
about. The technology is there, but we do have to make sure 
that everybody who is part of this is taking advantage of it.
    Ms. DeGette. Thank you.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Doyle. The gentlelady yields back.
    Without objection, the following documents will be made 
part of the record: A letter from the Chamber of Commerce 
Coalition members; a letter from Consumer Reports; a letter 
from the Electronic Privacy Information Center; a letter from 
National Association of Federally-Insured Credit Unions; a 
letter from ACA International; an attachment to the letter from 
ACA International; and a letter from Representative Van Drew of 
New Jersey. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. I want to thank the witnesses for their 
participation in today's hearing. I want to remind all Members 
that, pursuant to committee rules, they have 10 business days 
to submit additional questions for the record to be answered by 
the witnesses who have appeared. I ask each witness to respond 
promptly to any such question you may receive.
    At this time, the subcommittee is adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    

                                 <all>
</pre></body></html>
